Audit Report




OIG-14-037
Audit of the Office of D.C. Pensions’ Fiscal Years
2013 and 2012 Financial Statements

June 2, 2014




Office of
Inspector General
Department of the Treasury
  The Treasury Department is committed to making its Web Site accessible to all
citizens and ensuring that it meets or exceeds the requirements of Section 508 of
the Rehabilitation Act. The attachment to our report, the FY 2013 Annual Report
for the District of Columbia Pensions Program, does not conform to the Standards
   of Section 508 of the Rehabilitation Act. To obtain an accessible copy of the
       Office of D.C. Pensions' FY 2013 Annual Report, see its website at:

http://www.treasury.gov/about/organizational-structure/offices/Mgt/Pages/annual-
                              report-index.aspx

 For Treasury's Web Accessibility and Section 508 Compliance policy page, see:

 Site Policies and Notices re: Accessibility-Section 508 of The Rehabilitation Act

      In addition, please note that the following Notes contain data relating to
September 30, 2014 and 2013 that is not searchable as required by Section 8L of
 the Inspector General Act of 1978 (5 U.S.C. App.), as amended by the Inspector
                            General Reform Act of 2008:
                Note 3: amortized cost of Investments, Net (page 61);
                Note 4: the components of Accounts Receivable, Net,
                 Note 5: the components of ADP Software, Net, and
                Note 6: the components of Equipment, Net (page 62).
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220


                                                June 2, 2014
     OFFICE OF
INSPECTOR GENERAL



            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audit

            SUBJECT:               Audit of the Office of D.C. Pensions’ Fiscal Years 2013 and
                                   2012 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2013 and 2012. Under a contract monitored
            by the Office of Inspector General, KPMG LLP (KPMG), an independent certified
            public accounting firm, performed an audit of the financial statements of ODCP as
            of September 30, 2013 and 2012 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards and applicable provisions of Office of Management
            and Budget Bulletin No. 14-02, Audit Requirements for Federal Financial
            Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG found that the financial statements were fairly presented, in all
            material respects, in accordance with U.S. generally accepted accounting
            principles. However, KPMG identified a material weakness related to ODCP’s
            review controls over its actuarial pension liability. In addition, KPMG identified a
            significant deficiency related to supervisory review and monitoring controls over
            annuitant benefit payments. KPMG found no instances of reportable noncompliance
            with laws and regulations tested.

            KPMG also issued a management letter dated May 28, 2014 discussing certain
            matters involving internal control over financial reporting that were identified during
            the audit but were not required to be included in the auditors’ reports. This letter
            will be transmitted separately.
Page 2


In connection with the contract, we reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG is
responsible for the attached auditors’ reports dated May 28, 2014, and the
conclusions expressed in the reports. However, our review disclosed no instances
where KPMG did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audit, at
(202) 927-5407.

Attachment
MESSAGE FROM THE DIRECTOR
May 2014

On behalf of the Office of D.C. Pensions, I am pleased to present the
Fiscal Year 2013 Annual Report, which provides highlights of the
significant accomplishments achieved by the program for this year and
plans for upcoming years.

Pursuant to the Balanced Budget Act of 1997, as amended, the Office of
D.C. Pensions is responsible for carrying out the Secretary of the Treasury's responsibility to
fund and administer the District of Columbia Judges' Retirement Plan and the federal portion of
the District of Columbia Teachers’, and Police Officers’ and Firefighters’ Retirement Plans. As
of September 30, 2013, the District of Columbia Judicial Retirement and Survivors Annuity
Fund, and the District of Columbia Federal Pension Fund held assets totaling $4.1 billion.
During FY 2013, the Office of D.C. Pensions processed $649 million in benefit payments to
13,991 annuitants and refunds of employee contributions totaling $0.3 million were made to
former active employees or their beneficiaries.

During the fiscal year, the Office of D.C. Pensions efficiently managed financial resources by
confirming the proper annuitants receive benefit payments, automating aspects of the Student
Certification process thereby strengthening internal controls over the benefit payment process,
and by increasing the number of benefit payments made via Electronic Fund Transfer to 98.4%.
Also, during FY 2013, the Office of D.C. Pensions completed the Reconciliation of District
Benefit Payments. On June 20, 2013, the Office delivered a reimbursement request in the amount of
approximately $30.9 million to District government officials and the total payment was received on
March 31, 2014.

An independent public accounting firm rendered an unmodified opinion on the FY 2013
financial statements of the Office of D.C. Pensions, making this the 15th consecutive year of
unmodified opinions. This was accomplished through our partnership with the District of
Columbia Retirement Board, the Bureau of the Fiscal Service, and other Department of the
Treasury and District entities.

The Office of D.C. Pensions emphasized the program’s goals which are to provide successful
stewardship of the pension funds, high quality benefit administrative service, and effective use of
resources. The Office of D.C. Pensions continued to work collaboratively with all entities
associated with the District of Columbia Pensions Program to provide quality service to the
annuitants and to carry out the Department of the Treasury’s responsibilities under the Act.




                                                              Nancy A. Ostrowski, Director
                                                              Office of D.C. Pensions
                                                              Department of the Treasury
(This page left intentionally blank.)
                                 TABLE OF CONTENTS


PART 1        MANAGEMENT’S DISCUSSION AND ANALYSIS                         PAGE

  I.     Introduction                                                        1
  II.    Executive Summary                                                   3
  III.   Strategic Goals, Objectives, Outcomes, and Performance Measures     4
  IV.    Five-Year History of the District of Columbia Pensions Program     29
  V.     Limitation of the Financial Statements                             33

PART 2        INDEPENDENT AUDITORS’ REPORTS

         Independent Auditors’ Report                                       37
         Independent Auditors’ Report on Internal Control Over Financial
              Reporting                                                     40
         Independent Auditors’ Report on Compliance and Other Matters       46

PART 3        FINANCIAL STATEMENTS AND NOTES

         Consolidated Balance Sheets                                        49
         Consolidated Statements of Net Cost                                50
         Consolidated Statements of Changes in Net Position                 51
         Combined Statements of Budgetary Resources                         52
         Notes to Financial Statements                                      53

PART 4        SUPPLEMENTARY SCHEDULES

         Consolidating Balance Sheets                                       69
         Consolidating Statements of Net Cost                               70
         Consolidating Statements of Changes in Net Position                71
         Combining Statements of Budgetary Resources                        72
         Schedule of Pension Expense - By Fund                              73

PART 5        OTHER INFORMATION (Unaudited)

         Consolidating Schedule of Spending                                 77
(This page left intentionally blank.)
            MANAGEMENT'S DISCUSSION AND ANALYSIS
                     FISCAL YEAR 2013
        Vision:
        The vision of the Office of D.C. Pensions is successful stewardship of the pension funds; high
        quality benefits administration services; and effective use of program resources, while fostering
        mutually beneficial relationships with our business partners at the District of Columbia, the Bureau
        of the Fiscal Service, and other Treasury entities.

        Mission:
        The mission of the Office of D.C. Pensions is to implement the Secretary's responsibilities under
        Title XI of the Balanced Budget Act of 1997, Public Law 105-33 (111 Stat. 251, 712), as amended.
        The responsibilities are to make timely and accurate benefit payments associated with the District of
        Columbia retirement programs for police officers and firefighters, teachers and judges by managing
        investments, providing oversight and program management, and ensuring funding is available for
        future payments.


I.    Introduction

A.    Statutory Basis and Responsibilities
      Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act1),
      the Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
      population of annuitants under the following District of Columbia (the District) retirement
      plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement
      Plan, and the Judges’ Retirement Plan. Specifically, the Secretary is responsible for
      administering the retirement benefits earned by District teachers, police officers, and
      firefighters based upon service accrued on or before June 30, 1997, and administering the
      retirement benefits earned by District judges, regardless of when service accrued. These
      benefits are referred to as Federal benefit payments. Benefit payments to which an
      individual is entitled under the District of Columbia Replacement Plan (pertaining to police
      officers, firefighters, and teachers based upon service accrued after June 30, 1997) are
      referred to as District benefit payments. Benefit payments which are both Federal and
      District are referred to as split benefit payments.

      The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
      (2) investing fund assets; and (3) funding pension benefits. To carry out these
      responsibilities, the Department of the Treasury’s (Treasury) Office of D.C. Pensions (the
1
 There have been three amendments to the Balanced Budget Act of 1997. These include Technical and Clarifying
Amendments Relating to District of Columbia Retirement Funds, Title VIII of Pub. L. 105-277 (Omnibus
Consolidated and Emergency Supplemental Appropriations Act, 1999), 112 Stat. 2681, (Oct. 21, 1998); Law
Enforcement Pay Equity Act of 2000, Pub. L. 106-554, (Consolidated Appropriations Act of 2001) 114 Stat. 2763
(Dec. 21, 2000) and District of Columbia Police Department Retirees – Service Longevity Component, Pub. L. 107-
290, 116 Stat. 2051 (Nov. 7, 2007); and the District of Columbia Retirement Protection Improvement Act of 2004
(Pub. L. 108-489, 118 Stat. 3966 (Dec. 23, 2004).

                                                         1
   Office) engages in a wide range of legal, policy and operational activities in the areas of
   benefits administration, information technology, financial management and program
   management. The Office coordinates with many District entities and stakeholders to
   administer its responsibilities.

   Since September 26, 2005, the District of Columbia Retirement Board (DCRB) serves as
   the interim benefits administrator for the Police Officers’ and Firefighters’, and Teachers’
   Retirement Plans. The Office reimburses DCRB for expenses associated with
   administrating the Federal benefit payments. Also, as of that date, the Office assumed
   benefit administration responsibility for the Judges’ Retirement Plan.

B. Organizational Structure and Staffing
   The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
   Human Capital Officer (DASHR/CHCO). The DASHR/CHCO reports to the Assistant
   Secretary for Management, Chief Financial Officer, and Chief Performance Officer
   (ASM/CFO/CPO). The ASM/CFO/CPO reports through the Deputy Secretary to the
   Secretary of the Treasury.

   The Office structure consists of three key functional areas: benefits and systems
   administration, finance and resource administration, and program management.

      Benefits and Systems Administration: The Office provides oversight of the benefit
       administration functions for certain District of Columbia retirement plans. The Office
       also operates and maintains the System to Administer Retirement (STAR), an
       automated pension/payroll system, in support of benefits administration.
       Approximately $649 million in Federal and District benefit payments were made to
       13,991 annuitants as of September 30, 2013.

      Finance and Resource Administration: The Office is responsible for financial and
       administrative activities related to the benefit administration functions it oversees. The
       Office provides oversight for investments in Government Account Series (GAS)
       securities in the federal pension funds totaling approximately $3.6 billion as of
       September 30, 2013. The Office also performs an annual actuarial valuation to
       determine the pension liability of the retirement plans and the annual contributions
       from the Treasury General Fund to the District of Columbia Teachers, Police Officers
       and Firefighters Federal Pension Fund (D.C. Federal Pensions Fund) and the District of
       Columbia Judicial Retirement and Survivors Annuity Fund (Judicial Retirement Fund).

      Program Management: The Office plans and executes its responsibilities through
       program management activities which include planning and project management,
       quality management and risk management. The Office also produces, analyzes and acts
       upon performance management information to continually improve operations. As of
       September 30, 2013, the D.C. Federal Pensions Fund and the Judicial Retirement Fund
       paid for 22 Treasury positions. In addition, the Office provides funds to other Treasury
       offices providing support critical to accomplishing the Office’s mission.

                                              2
      Pursuant to Interagency Agreements (IAA) with the Treasury’s Bureau of the Fiscal
      Service’s (BFS), the Administrative Resource Center (ARC), provides financial
      management, annuitant payroll, and information technology support services. The
      financial management services include: financial management system platforms, budget
      processing, accounts receivable and accounts payable processing, financial reporting and
      investment accounting. Annuitant payroll services include: STAR payroll processing, debt
      management, split benefit reconciliation and reporting, third party reporting, and mailings.
      Information technology support services include: systems administration and hosting for
      the automated pension/payroll system and security support services which include Federal
      Information Security Management Act (FISMA) compliance.


II.   Executive Summary

      During fiscal year (FY) 2013, the Office of D.C. Pensions (the Office) successfully worked
      with the District of Columbia Retirement Board (DCRB), Treasury’s Bureau of the Fiscal
      Service (BFS), Administrative Resource Center (ARC) and other Treasury entities to
      execute responsibilities under the provisions in Title XI of the Balanced Budget Act of
      1997, as amended.

      During FY 2013, the Reconciliation Project of District Benefit Payments was completed,
      and the District was issued a request for payment to the Treasury in the amount of $30.9
      million. The project reconciled amounts paid between the District and Treasury for benefit
      payments incurred from October 1, 1997, through December 31, 2007. The Office met
      regularly with the DCRB and the District regarding the methodologies, procedures, data,
      agreements and timing for conducting reconciliation activities. An external audit was
      conducted early in FY 2013. The payment was received on March 31, 2014, completing
      the Reconciliation of District Benefit Payments Project.

      The Office continued to oversee the Annuitant Verification Project, which has become
      operational in DCRB. Reports in STAR were updated and additional reviews were adopted
      to minimize the potential for improper payments to annuitants. The Office also continued
      its efforts to increase participation in Electronic Funds Transfer (EFT) by encouraging
      annuitants receiving paper checks to enroll in direct deposit. As a result of the initiative,
      the participation rate increased from 96.8% to 98.4%.

      The STAR Operational Process Improvements and Enhancements Project was successfully
      completed in FY 2012 and weekly stakeholders’ meetings continued through FY 2013.
      The SharePoint documentation library structures and views were improved. This
      application streamlined the STAR Change Control Board process to enhance collaboration
      and provided a centralized location for storing artifacts has been successfully used
      throughout FY 2013.

      For the 15th consecutive year, the Office received an unmodified audit opinion.  However,
      during FY 2013, the Office discovered an error had occurred in the calculation used to
      support the Actuarial Pension Liability reported in the previously issued consolidated

                                                 3
   financial statements as of September 30, 2010, 2011, and 2012. To correct this error, the
   Office restated its Consolidated Balance Sheet as of September 30, 2012, and its
   Consolidated Statement of Net Cost and Consolidated Statement of Changes in Net
   Position for the period ended September 30, 2012, within the accompanying FY 2013
   comparative financial statements. The Office reflected the cumulative effect of the error
   attributable to fiscal years FY 2010 and FY 2011 as an adjustment to the beginning balance
   of the Cumulative Results of Operations in the Consolidated Statement of Changes in Net
   Position for the period ended September 30, 2012.

   In FY 2013, the Office’s Program Management Group, which was designed to support
   long-term strategic focus areas including program oversight, quality management and
   performance management, continued to meet. The Office collaborated on strategic focus
   areas with program stakeholders throughout the District of Columbia Pensions Program.
   The following sections of the Management’s Discussion and Analysis provide more details
   about the FY 2013 program results and plans for future years.


III. Strategic Goals, Objectives, Outcomes, and Performance
     Measures
   The Office of D.C. Pensions (the Office) has three Strategic Goals that contribute to the
   achievement of one of the five Department of the Treasury’s (Treasury) Strategic Goals:
   Manage the Government’s Finances in a Fiscally Responsible Manner.

   1. Office Strategic Goal: Effectively Managed Finances
      Office Outcomes:
       Benefit payments are accurate and timely
       Pension funds are effectively invested
       Pension funds are effectively financed
       Pension funds meet future needs

   2. Office Strategic Goal: Management and Organizational Excellence
      Office Outcomes:
       Program is effectively managed

   3. Office Strategic Goal: Effective Quality Assurance Program
      Office Outcomes:
       Program creates continuous improvement

   The table on the following page displays the Office’s Strategic Goals, Objectives and
   Outcomes with a link to the one Treasury Strategic Goal. It also identifies the Office’s
   Performance Measures and Results.




                                              4
                 Office of D.C. Pensions Strategic Goals, Objectives, Outcomes, and Performance Measures

Fiscal Years 2013-2016                                                                                              Fiscal Year 2013
                                                                                                                    ODCP Performance
Treasury Goals and Objectives                  ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                    Measures
Treasury               Treasury                ODCP             ODCP                            ODCP                ODCP
Strategic Goal         Strategic Objective     Strategic Goal   Strategic Objective             Outcomes            Performance Measure
Manage the             Continuously            Effectively      Skilled staff and technology    Benefit payments    New annuitant benefit
Government’s           improve our             Managed          are available to administer     are accurate and    calculation error rate as of
Finances in a          operations and          Finances         benefits                        timely              September 1, 2013 payment
Fiscally Responsible   processes to generate                                                                        date
Manner                 efficiency savings                                                                           Target: 5% or less
                                                                                                                    Actual: 1.16%
                                                                                                                    STAR is available to users
                                                                                                                    Target: 99% or more
                                                                                                                    Actual: 99.8%
                                                                Skilled staff and funds are     Pension funds are   Investment strategy developed
                                                                available to manage financial   effectively         timely
                                                                activities                      invested            Target: September 21, 2013
                                                                                                                    Actual: September 26, 2013
                                                                                                                    Investment strategy
                                                                                                                    implemented timely
                                                                                                                    Target: 100%
                                                                                                                    Actual: 100%
                                                                                                Pension funds are   Minimum daily cash balance
                                                                                                effectively         equivalent to two months of
                                                                                                financed            benefit payments
                                                                                                                    Target: 100%
                                                                                                                    Actual: 96%
                                                                                                                    Annual Contribution from
                                                                                                                    General Fund received into the
                                                                                                                    D.C. Federal Pension &
                                                                                                                    Judicial Retirement Funds
                                                                                                                    Target: September 30, 2013
                                                                                                                    Actual: October 2, 2013


                                                                    5
Fiscal Years 2013-2016                                                                                              Fiscal Year 2013
                                                                                                                    ODCP Performance
Treasury Goals and Objectives                  ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                    Measures
Treasury               Treasury                ODCP             ODCP                            ODCP                ODCP
Strategic Goal         Strategic Objective     Strategic Goal   Strategic Objective             Outcomes            Performance Measure
Manage the             Continuously            Effectively      Skilled staff and funds are     Pension funds are   Monthly payments made to
Government’s           improve our             Managed          available to manage financial   effectively         annuitants by the first business
Finances in a          operations and          Finances         activities (continued)          financed            day of the month
Fiscally Responsible   processes to generate   (continued)                                      (continued)         Target: 100%
Manner (continued)     efficiency savings                                                                           Actual: 100%
                       (continued)                                                                                  Electronic payments made to
                                                                                                                    annuitants
                                                                                                                    Target: 95%
                                                                                                                    Actual: 98%
                                                                                                                    Vendor payments made timely
                                                                                                                    Target: 100%
                                                                                                                    Actual: 99%
                                                                                                Pension funds       Actuarial calculation of FY13
                                                                                                meet future needs   annual contribution from
                                                                                                                    General Fund prepared timely
                                                                                                                    Target: November 16, 2012
                                                                                                                    Actual: October 26, 2012
                                               Management and   Skilled staff and management    Program is          Office employees received
                                               Organizational   tools are available             effectively         timely FY12 annual
                                               Excellence                                       managed             performance plans and reviews
                                                                                                                    Target: 100%
                                                                                                                    Actual: 100%
                                                                                                                    Financial Statement Audit
                                                                                                                    Opinion received from an
                                                                                                                    independent external auditor
                                                                                                                    Target: Unmodified opinion
                                                                                                                    Actual: Unmodified opinion




                                                                    6
Fiscal Years 2013-2016                                                                                               Fiscal Year 2013
                                                                                                                     ODCP Performance
Treasury Goals and Objectives                  ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                     Measures
Treasury               Treasury                ODCP                ODCP                            ODCP              ODCP
Strategic Goal         Strategic Objective     Strategic Goal      Strategic Objective             Outcomes          Performance Measure
Manage the             Continuously            Management and      Skilled staff and management    Program is        FY12 Annual Report and
Government’s           improve our             Organizational      tools are available             effectively       Financial Statements prepared
Finances in a          operations and          Excellence          (continued)                     managed           timely
Fiscally Responsible   processes to generate   (continued)                                         (continued)       Target: December 14, 2012
Manner (continued)     efficiency savings                                                                            Actual: December 7, 2012
                       (continued)                                                                                   Open financial management
                                                                                                                     material weaknesses as of
                                                                                                                     September 30, 2013
                                                                                                                     Target: 0
                                                                                                                     Actual: 1
                                                                                                                     FY12 Actuarial valuation
                                                                                                                     completed timely
                                                                                                                     Target: November 16, 2012
                                                                                                                     Actual: October 26, 2012
                                               Effective Quality   Quality plans are operational   Program creates   Quality assurance plans
                                               Assurance           in each area                    continuous        developed by October 1
                                               Program                                             improvement       Target: 100%
                                                                                                                     Actual: 75% (See footnote #1)
Footnotes:
   1) For the Quality Plan Performance Measure: Due to OPIE, a new IT service level agreement has been established with our service
      provider. However, the IT Quality Plan is under development.




                                                                       7
A.   Benefit payments are accurate and timely
1.   Program Results

     a. Benefits Administration

     General Operations

     Benefits administration services were provided to 13,991 annuitants, as of
     September 30, 2013, in three District of Columbia retirement plans: the Police Officers’
     and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and the Judges’
     Retirement Plan. The annuitant population within each plan is as follows: teachers, 6,175;
     police officers and firefighters, 7,725; and judges, 91.
                                           Judges 0.7%



                                                                Teachers
                          Police/Fire                            44.1%
                            55.2%



     In FY 2013, the monthly Federal and District benefit payments averaged $54.1 million,
     which is $1.6 million higher than the previous year. All payroll files were submitted on
     time ensuring timely payment of annuitant benefits on the first business day of the month.
     With oversight and support by the Office of D.C. Pensions (the Office), the District of
     Columbia’s Retirement Board (DCRB) performed benefits administration services for the
     Police Officers’ and Firefighters’ Retirement Plan and the Teachers’ Retirement Plan,
     while the Office performed benefits administration for the Judges’ Retirement Plan.

     General operations focus largely on transaction processing and customer service activities.
     On a monthly basis, activities include processing new retirements and/or survivor benefits,
     terminating those no longer eligible and updating annuitants’ personal and benefits
     information. The table below summarizes the average customer service activities.
     Equally important to transaction processing is customer service. The DCRB customer
     service team performed a wide range of activities, including resolving annuitant inquiries.
                    FY 2013 Average Monthly Processing in Key Areas
        Customer Service Activity                          Monthly Volume
        New Retirements                                            29
        Beneficiaries/Estates                                      28
        Purchase of Service                                        13
        Direct Deposit Changes                                     63
        New Survivors                                               8
        Qualified Domestic Relations Orders (QDRO)                  1
        Refunds                                                    38
        Tax Changes                                               161
                                               8
In FY 2013, the average monthly support from the customer service team included:

   Answering Calls – 1,182 per month
   Servicing Walk-ins – 88 per month

The Office encourages annuitants to receive benefits through direct deposit. Direct deposit
is a more convenient, secure and timely method of delivering benefits. At fiscal year end,
the Electronic Funds Transfer (EFT) participation rate for annuitants in all retirement plans
was 98.4%, resulting in a 1.6% increase from the previous year. The table below illustrates
the EFT participation rates for annuitants by retirement plan.


                         Percentage of EFT Participation
                  Annuitants            2013            2012
                  Police/Fire          97.7%            96.2%
                   Teachers            98.3%            97.4%
                    Judges            100.0%           100.0%


In FY 2013, a variety of outreach efforts provided accurate and timely information to
annuitants, including:

   Letters notifying annuitants when their benefits changed;
   Earning statement messages alerting annuitants to changes (such as a cost-of-living
    adjustment) or opportunities (e.g., signing up for direct deposit);
   DCRB newsletter (which provides important retirement plan information for active and
    retired police officers, firefighters, and teachers);
   Special correspondence (which provide annuitants with additional information about
    the retirement plans such as EFT enrollments); and
   Communications materials and updated Summary Plan Descriptions for the Teachers’
    Retirement Plan and the Police Officers’ and Firefighters’ Retirement Plans were
    distributed to plan participants and uploaded to the DCRB website.

Annuitant Satisfaction

In FY 2013, DCRB continued to reach out to annuitants for feedback regarding customer
satisfaction. The annuitant survey asked participants to rate the patience, professionalism,
knowledge, responsiveness, and courteousness of the person with whom the annuitant
spoke. In addition, the survey asked how satisfied the caller was with the process, their
overall experience with the Member Services Center, their wait time, and their perception
of the customer service representatives’ ability to understand their issue and help them. In
August, DCRB introduced a new survey format to expand on the question areas and the
categories of recipients receiving the survey. Additionally, an on-line response was
provided as an option to the paper response. The overall responses from the annuitants
indicated that DCRB staff provided excellent service.

                                           9
Annuitant Payroll Operations

Treasury’s Bureau of the Fiscal Service (BFS), Administrative Resource Center (ARC),
Pension Payroll (ARC Pension Payroll) provides a variety of services to the Office
including annuitant payroll operations, mail management, split benefits reconciliation and
reporting, quality reporting, as well as managing payroll projects.

ARC Pension Payroll utilizes the System to Administer Retirement (STAR), the automated
pension/payroll system that support benefits administration and payroll operations, to
process monthly benefit payments. ARC Pension Payroll works closely with DCRB to
process monthly benefit payments and associated insurance carrier payments. ARC
Pension Payroll is responsible for reconciling the payroll reports generated from STAR to
ensure the annuitant payroll is processed correctly. In FY 2013, ARC Pension Payroll staff
made 168,121 benefit payments totaling approximately $649 million for a monthly average
of $54.1 million.

ARC Pension Payroll also provides mail management support to ensure that monthly
earnings statements and other annuitant communications are distributed in an efficient and
timely manner. In FY 2013, ARC Pension Payroll issued 168,431 earnings statements and
letters to 2,195 annuitants.

ARC Pension Payroll is responsible for reporting the share of Federal and District benefit
payments. This information is calculated by STAR and is included in the Split
Reimbursement Summary Report (SRSR). ARC Pension Payroll completes the preparation
of the SRSR, reconciles the report to monthly STAR payment activity, and makes
adjustments to the report to account for non-STAR activities, such as debt collection. This
report supports the reimbursement to Treasury from DCRB for District benefit payments.

ARC Pension Payroll provides support to assist with projects. This includes mail merges
for letters, tracking of data or statistics, status reports, researching databases, supporting
DCRB with findings, and mailing documents. In FY 2013, ARC Pension Payroll provided
support with the Annuitant Verification Project, Survivor/Student Notification Project, Do
Not Pay Implementation, Post 1956 Military Service Project, Student Eligibility Review,
and the Electronic Funds Transfer Project. ARC Pension Payroll also provides assistance
with the annual audit.

Benefit Administration Projects

Electronic Funds Transfer (EFT) Project

In FY 2013, the Office continued to focus on the 2013 BFS, Financial Management
Services (FMS) EFT initiative which required, by March 2013, certain recipients to
receive Federal benefit payments by direct deposit, either to a bank account or to a Direct
Express Debit Master Card. The Office was not able to implement the use of the Direct
Express Debit Master Card due to systems limitations at BFS/FMS. However, the Office
still realized an increase in EFT participation during FY 2013. The rate of EFT
participation increased from 96.8% to 98.4%. The participation increased due to several
                                           10
initiatives such as targeted mailings, earnings statement messages, and individual outreach.
In FY 2014, the Office will continue to encourage annuitants to participate in direct
deposit.

Student Eligibility Review

In FY 2013, the Office, ARC Pension Payroll, and DCRB reviewed the student status of
child survivors and STAR was updated as appropriate for missing certifications and
incorrect data pertaining to student status. Additionally, ARC Pension Payroll initiated
debt collection activities in cases where expired student certifications were identified.
Also, in FY 2013, STAR was enhanced to aid with monitoring the status of child survivors.
In 2014, the Office will continue to work with ARC Pension Payroll and DCRB to monitor
this population of annuitants.

Summary Plan Descriptions (SPD)

In FY 2013, an updated SPD for the District of Columbia Police Officers’ and Firefighters’
Retirement Plan and the Teachers’ Retirement Plan were completed and published. The
SPD was designed to provide plan members with accurate and easy to understand
information about the retirement plans. This project was led by DCRB with assistance
from the Office and several other District stakeholders. The updated SPD includes
information on statutory changes to the plans.

Work to update the District of Columbia Judges’ Retirement Plan SPD began during
FY 2013, as well. The Office collaborated with other District stakeholders to provide plan
members with updated information about the retirement plan. The updated SPD will be
published and distributed in FY 2014.

Benefit Correction Projects

During FY 2013, the Office collaborated with DCRB to define key areas of focus including
benefit activities and data integrity. As a result of these efforts, in FY 2014, the Office
plans to procure a benefits contractor to assist with benefits projects. This will allow the
Office to have maximum flexibility to execute various projects simultaneously. Some of
the key areas identified for future focus include: 80% Maximum Annuity Calculations,
Lookback Cost of Living Adjustments (COLA), and Term-Vested Payment Review.

In FY 2013, the Office addressed the Teachers’ Survivor COLA, the Child Survivor
COLA, Partial Month Police Officers’ and Firefighters’ Survivors Payments, and Post 1956
Military Service projects.

Teachers’ Survivor COLA

In partnership with DCRB, the Office reviewed and researched approximately 75 teacher
survivors to determine if they received a duplicate COLA. Of the 75 researched, three



                                          11
were identified to have received a duplicate COLA. Where applicable, the annuities were
recalculated to correct the benefit payments prospectively.

Child Survivor COLA

In FY 2013, the Office recalculated 31 child survivors whose annuities were not updated
with COLAs since 2007. The annuities were adjusted to the correct benefit payment
prospectively and any underpayment amounts were paid to eligible child survivors.

Partial Month Police Officers’ and Firefighters’ Survivors’ Payments

In FY 2011, the determination was made to pay the final partial month payment to eligible
beneficiaries of survivors of the Police Officers’ and Firefighters’ Retirement Plan for
survivors who died after April 27, 2011. In FY 2013, DCRB began making payments to
the beneficiaries who were identified to receive such a payment. ODCP continues to
monitor DCRB’s progress of making the retroactive payments to eligible beneficiaries as
they are identified.

Post 1956 Military Service

The District of Columbia Retirement Equity Act that was signed into law on
November 22, 2003 permits D.C. Police Officer’s and Firefighters’ Retirement Plan
members to purchase eligible Post 1956 Military Service for purposes of calculating their
retirement benefit. In FY 2013, the Office worked with the DCRB and ARC Pension
Payroll to contact annuitants who had not purchased Post 1956 Military Service to
determine if they were eligible for Social Security. ARC Pension Payroll mailed
personalized letters to individuals impacted by this Act. DCRB continues to review the
documentation provided by annuitants to determine if an adjustment to the benefits
payments are warranted.

b. System to Administer Retirement (STAR)

Background and History

STAR is an automated pension/payroll system. Developed by the Office in cooperation
with the District, STAR supports the end-to-end business processes for retirement,
streamlines the administration and payment of pension benefits to annuitants, and enhances
customer service. STAR enables pension analysts to quickly access information and
provide annuitants with real-time customer service. In addition to processing retirements,
STAR calculates the share of Federal and District benefit payments.

STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human resources,
pensions, and payroll administration. The STAR implementation was phased and deployed
in bundles known as releases.

   Release 1 was implemented in December 2002 to serve all annuitants of the Judges’
    Retirement Plan.
                                         12
   Release 2 was implemented in September 2003 to serve teachers, police officers, and
    firefighters who retired on or before June 30, 1997, and their survivors.
   Release 3 was deployed in August of 2005 for Teachers, Police, and Firefighters whose
    initial retirement was processed in STAR after August 1, 2005 (and their survivors).
    This release also converted Teachers, Police, and Firefighters who retired after
    July 1, 1997, and before August 1, 2005, and whose initial retirement processing took
    place in the District’s legacy system, the Pension Administration and Payroll System
    (PAPS).
   Release 4 started the implementation of the split benefit calculation to enable STAR to
    calculate the federal and District share (split) for benefit payments. Release 4 was
    implemented in June 2007 to calculate the split for future payments to those annuitants
    who were brought into pay status on or after June 4, 2007. This release also included
    an upgrade of Oracle/PeopleSoft from version 8.0 to 8.9.
   Release 5 was implemented in November 2007 and completed the implementation of
    the split benefit calculation. The split was calculated for future benefit payments to
    annuitants whose initial retirement processing took place in STAR between
    August 2005 and June 2007. In addition, STAR calculated the split for the future
    benefit payments to annuitants who retired after June 30, 1997, and whose initial
    retirement processing took place in PAPS.
   Release 6 was implemented in May 2012 and upgraded the Oracle/PeopleSoft version
    8.9 to version 9.1. The upgrade leveraged existing and newly delivered functionality to
    reduce the overall number of Oracle/PeopleSoft application customizations. One of the
    major de-customizations included the utilization of the delivered “person model”
    method for tracking a person in the system. In addition, newly delivered functionality
    included a “Smart Hire” template, which reduces both data entry errors and the time to
    enter a new annuitant. The efforts to de-customize STAR will result in significant
    reductions to the total cost of ownership.

STAR Long-Term Architectural Plan

The Office maintains a STAR Long-Term Architecture Plan (LTAP) designed to ensure the
system architecture continues to meet business goals and objectives. The STAR LTAP
also provides information for planning and budgeting for system enhancements.

In FY 2013, the STAR LTAP was unchanged. This five year management plan outlines
the future upgrades to the STAR application software, database and hardware in order to
maintain the vendor license agreements.

STAR Technical Production Support and Hosting

System hosting and technical production support for STAR is performed by Treasury’s
Bureau of the Fiscal Service, Information Security Services (ISS). Since September 2003,
ISS staff members have provided production support activities, including routine system
operations, application and database administration, help desk operations, and problem
resolution. A supplemental support contract is also in place to provide assistance to ISS in
both operations and maintenance activities.

                                          13
In prior years, STAR availability measurement was collected for only the production
system used by the end-user. In FY2013, STAR availability was expanded to include the
development system used by ISS to develop and test change requests, system patches and
fixes, and data fixes. In FY 2013, STAR was available to the user population 99.8% of the
time.

STAR System Security

The STAR system is in compliance with all relevant security requirements and last
renewed its triennial security Certification and Accreditation (C&A) in May 2013. The
C&A is a process that ensures that systems and major applications adhere to formal and
established security requirements that are well-documented and authorized.

In FY 2013, the Office began preparations for changes required by OMB mandate and
NIST Special Publication 800-137. Agencies are now expected to conduct ongoing
authorization of information systems through the implementation of continuous monitoring
programs.

During FY 2013, the Office successfully mitigated nine vulnerability (all low) Plan of
Actions and Milestones (POA&M) items identified during the FY 2012 System Test &
Evaluation (ST&E). In addition, five new vulnerability (three low and two medium)
POA&M items were identified during the FY 2013 C&A. A corrective action approach
has been established and the Office plans to implement its mitigation strategies in FY 2013.

During the FY 2013 C&A, the Office worked with the Bureau of the Fiscal Service (BFS)
to divide the Information System Security Officer (ISSO) role between BFS and the Office.
The BFS appointed a representative to be the ISSO for the infrastructure level of the
STAR, which includes items outside of the STAR boundary line that the BFS is responsible
to maintain as a part of their General Support System (GSS); the Office appointed a
representative to be the ISSO for the application level of the STAR, which includes items
within the STAR boundary line that the Office is responsible for maintaining.
 
The Office established a STAR Contingency Plan to address potential disruptions in
service and a STAR Disaster Recovery Plan which outlines the procedures for handling any
major catastrophe. As required by NIST 800-53, the Office annually conducts contingency
site tests to verify the accuracy and integrity of the data and functionality of the
contingency system. In FY 2013, the Office utilized a tabletop exercise to test the
procedures and roles and responsibilities outlined in the Contingency Plan and executed an
anonymous STAR port scan to test the procedures and roles and responsibilities outlined in
the Incident Response Plan. Lessons learned items identified from the exercises were used
to update various STAR security documentation.

Federal Information Security Management Act (FISMA) Audit

During FY 2013, the Office was selected by the Treasury, Office of the Inspector General
to participate in the Department-wide FISMA performance audit. The objective of the
audit was to determine if the Department’s information security program and practices for
                                          14
its non-IRS bureaus’ unclassified systems were generally consistent with the FISMA
legislation and related information security policies, standards, and guidelines.

Operational Process Improvements and Enhancements

A program review of STAR technical support was completed in early FY 2010. The
program review identified opportunities for process improvements and efficiencies in the
areas of STAR requirements management, configuration management, and testing. The
Operational Process Improvements and Enhancements (OPIE) project began in FY 2010 to
address the recommendations from the program review to minimize overall operational
risks to the STAR system by improving technical support processes and procedures.

In FY 2012, the OPIE project formally introduced a revised STAR Change Control Plan,
which implemented a Quarterly Release paradigm for STAR. The new Quarterly Release
model allowed for improved oversight and management of technical changes to the STAR
system, and allowed for more efficient and thorough software testing due to the bundling of
changes in discrete releases. OPIE project participants continued to refine development
processes and documentation templates post-implementation of the Quarterly Release, as
well as improved the SharePoint documentation library structures and views. The final
major effort within the OPIE project is the implementation of automated software testing
tools: Application Lifecycle Management (ALM) and Unified Functional Testing (UFT).
The tools will assist the production support team in their quarterly system and regression
testing efforts.

The OPIE project successfully concluded at the end of FY 2012. The ODCP IT focus
currently centers on operations and maintenance (O&M) of STAR and further refinement
of methods for effective oversight and management of the system. To ensure the adoption
of established OPIE practices as well as continued process refinement, a weekly meeting
with stakeholders has been established to address STAR IT process issues. In addition, a
STAR IT Quality Plan will be introduced in FY 2014 in an effort to more effectively
monitor the quality of STAR support services through performance metrics.

Change Control Board

The Office’s Change Control Board (CCB) acts as the approving authority for all STAR
requirement changes. The CCB evaluates the costs, benefits, and risks associated with any
proposed change; makes a determination as to whether or not the proposed change should
be implemented; and establishes the priority for each approved change. The CCB process
enhances internal controls and accountability for new proposed changes.

During FY 2013, the Office continued with the revised CCB process. The prior year
reclassification of STAR change ticket categories, which more clearly differentiates
between changes to existing system requirements with operational maintenance items, has
been successful. The Office also implemented a Quarterly Release cycle for system
changes, which will align with industry practices.



                                         15
B.   Pension Funds are effectively invested, financed and meet future needs

1.   Program Results

     a. Pension Funds

     Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004,
     Public Law 108-489, the Office of D.C. Pensions (the Office) administers Federal benefit
     payments through two funds:

        The District of Columbia Teachers, Police Officers and Firefighters Federal
         Pension Fund (D.C. Federal Pension Fund) makes Federal benefit payments and
         pays necessary administrative expenses for the Police Officers’ and Firefighters’, and
         Teachers’ Retirement Plans. The D.C. Federal Pension Fund is not a typical pension
         fund in that it does not receive employee and employer contributions. The sources of
         funding for the D.C. Federal Pension Fund are: payments from the District of Columbia
         Retirement Board (DCRB); an annual federal payment amortizing the unfunded
         liability assumed from the District and any additional liabilities; and interest earned on
         investments.

        The District of Columbia Judicial Retirement and Survivors Annuity Fund
         (Judicial Retirement Fund) accumulates funds to finance Federal benefit payments
         and necessary administrative expenses of the Judicial Retirement Plan. There are three
         funding sources for the Judicial Retirement Fund: employee contributions; an annual
         federal payment amortizing the unfunded liability assumed from the District and any
         additional liabilities; and interest earned on investments.

     b. Deposits

     Warrants

     As authorized by the Act, the D.C. Federal Pension Fund and the Judicial Retirement Fund
     receive annual payments from the Treasury General Fund to fund covered expenses for the
     year and amortize the unfunded liabilities of the retirement programs assumed by the
     Federal Government over 30 years, the annual net experience gains or losses over 10 years,
     and any annual changes in actuarial liabilities over 20 years. The annual payment to the
     Judicial Retirement Fund also includes amounts necessary to fund the normal cost of the
     retirement program.

     In accordance with the Act, the annual payments to the funds are made in September each
     year and are invested in Government Account Series (GAS), non-marketable Treasury
     securities, with maturities and par amounts consistent with the expected payment dates and
     payout amounts of the pension liabilities. In FY 2013, $495.9 million was deposited into
     the D.C. Federal Pensions Fund and $9.4 million was deposited into the Judicial
     Retirement Fund. In FY 2012, $482.4 million was deposited into the D.C. Federal Pension
     Fund and $9.6 million into the Judicial Retirement Fund.

                                                16
Interest

In FY 2013, the Treasury deposited $131.9 million in interest cash payments in the
D.C. Federal Pension Fund and $4.5 million in interest cash payments in the Judicial
Retirement Fund. The Office recognized interest earned of $73.7 million in the
D.C. Federal Pension Fund and $3.8 million of interest earned in the Judicial Retirement
Fund. The rate of return in FY 2013 for the Office’s pension funds was 2.32% for the
D.C. Federal Pension Fund and 2.98% for the Judicial Retirement Fund.

In FY 2012, the Treasury deposited $130.7 million in interest cash payments in the
D.C. Federal Pension Fund and $4.7 million in interest cash payments in the Judicial
Retirement Fund. The Office recognized interest earned of $94.2 million in the
D.C. Federal Pension Fund and $4.1 million of interest earned in the Judicial Retirement
Fund. The rate of return in FY 2012 for the Office’s pension funds was 2.8% for the
D.C. Federal Pension Fund and 3.2% for the Judicial Retirement Fund.

The rate of return is calculated by dividing interest earned from GAS securities by the
average par value of investments in GAS securities. Interest earned from GAS securities
includes the amortization of premiums and discounts.

Judges Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement Fund to
pay for part of the cost of their retirement benefits. Active judges who elect a survivor
annuity contribute an additional 3.5% of salary. Active judges’ contributions to the
retirement fund in FY 2013 totaled approximately $617,000. In FY 2012, active judges’
contributions to the retirement fund totaled $577,000.

Summary of Fund Deposits

The following table reflects the cash deposits to the D.C. Federal Pension Fund and the
Judicial Retirement Fund for FY 2013 and FY 2012, respectively.
                       Fund Deposits by Fiscal Year (in millions)
                  Fund                 Type of Deposit         2013            2012
                                      Warrant                  $495.9          $482.4
       D.C. Federal Pension Fund      Interest                 $131.9          $130.7
                                      Contributions               $0.0           $0.0
                                      Warrant                     $9.4           $9.6
        Judicial Retirement Fund      Interest                    $4.5           $4.7
                                      Contributions               $0.6           $0.6
                                      Warrants                 $505.3          $492.0
                  Total               Interest                 $136.4          $135.4
                                      Contributions               $0.6           $0.6


                                          17
c. Collections

District Benefit Payments

Treasury initially pays and funds all benefit payments under the Police Officers’ and
Firefighters’ and Teachers’ Retirement Plans from the D.C. Federal Pension Fund. On the
first business day of the month, DCRB then reimburses the D.C. Federal Pension Fund for
benefit payments made by Treasury on behalf of the District. The System to Administer
Retirement (STAR) Split Reimbursement Summary Report supports DCRB
reimbursements made to Treasury each month. The FY 2013 and FY 2012 reimbursements
for District benefit payments totaled $98.8 million and $86.0 million, respectively.

Refunds Reconciliation Project

An MOU with DCRB provides that the District reimburse Treasury for that portion of
refunds paid by Treasury prior to February 1, 2005, which represent contributions withheld
from an employee’s salary or deposits after June 30, 1997. One hundred and thirty-eight
refund cases from FY 1999 and FY 1998 have not been reconciled because data is not
available to determine federal and District liability. In FY 2014, a methodology will be
developed and agreed upon by the Office and the District/DCRB to reconcile and process
the remaining cases. Receivables of $386,000 and $200,000 have been established for the
remaining FY 1999 and FY 1998 refund cases, respectively.

Debt Management

During FY 2013, the Office pursued debt prevention and collection efforts working with
Treasury’s Bureau of Fiscal Service, Administrative Resource Center (ARC) Pension
Payroll (ARC Pension Payroll), which manages the debt collection process for the Office.
The Office worked with ARC Pension Payroll and the Office of General Counsel to pursue
debt prevention efforts and ensured that approximately $1.0 million was immediately
recovered upon timely notification of an annuitant’s death or in cases of payment errors. In
addition, during the fiscal year, $298,487 was collected through offsets, lump sum
payments or installment payments. Also in FY 2013, the Office worked closely with
DCRB and ARC Pension Payroll to reduce the number of open debt cases.

The Debt Collection Improvement Act (DCIA) of 1996 requires agencies to transfer to
Treasury non-tax debt that is over 180 days delinquent. The FY 2013 agreement with the
BFS, Financial Management Service’s (FMS) Cross-Servicing Program allows collection
processes by issuing demand letters, conducting telephone follow-up, initiating skip
tracing, referring debts for administrative offset, performing administrative wage
garnishment and referring debts to private collection agencies. As of September 30, 2013,
ARC Pension Payroll referred nine debt cases totaling $63,217 to BFS/FMS for collection.

During FY 2014, the Office will continue to collaborate with stakeholders to streamline its
debt management practices and meet with stakeholders periodically to outline
improvements in debt prevention and collection.

                                          18
STAR Administration Expense Reimbursements

The Office and DCRB have developed a methodology for allocating STAR administration
costs incurred by the Office when administering District and Federal benefit payments.
The methodology takes into consideration the number of 100% federal annuitants, 100%
District annuitants, and split annuitants. In addition, DCRB is responsible for 100% of
STAR development costs associated with new District legislation. Applying this
methodology, the Office and DCRB entered into a cost sharing agreement for
reimbursement of FY 2013 actual expenses. Pursuant to the agreement, DCRB reimbursed
the Office approximately $1.0 million for the Office’s expenses in developing and
operating STAR to administer District benefit payments. In FY 2012, DCRB reimbursed
the Office approximately $1.0 million for administrative expenses associated with the
operation of STAR.

d. Investments

As required by the Act, amounts received in the D.C. Federal Pension Fund and the
Judicial Retirement Fund are invested in non-marketable securities issued to mirror the
characteristics of marketable securities. The Bureau of the Fiscal Service invests the assets
of the pension funds based on investment guidance from the Office. The Office follows a
“ladder” approach, scheduling maturities in amounts sufficient to meet the obligations to
pay benefits and administrative expenses projected by annual actuarial valuations.
Investment policy in the pension funds strikes a balance between ensuring the Office can
meet short-term obligations and extending the ladder.

In FY 2013, the cash balances in the two funds available for contingencies were targeted to
remain above $93 million, which represent approximately two months of federal
obligations. The balance in the Fund Balance with Treasury as of September 30, 2013, was
$514 million. This significant increase in Fund Balance with Treasury from FY 2012 to
FY 2013 is primarily attributable to monies collected ($505 million in annual
appropriations received and $8 million for the District’s share of the monthly annuity
payroll) that were not invested as of September 30, 2013, due to a timing difference.
Typically, the Office invests the cash balance in one-day certificates, except for an un-
invested balance of $500,000 at month end, to cover unanticipated withdrawals on the last
day of the month. In FY 2013, the Office extended the maturity dates of securities in the
D.C. Federal Pension Fund to November 2018 and for securities in the Judicial Retirement
Fund to February 2023.

Investments are valued at cost, adjusted for unamortized premiums and discounts, if
applicable. The premiums and discounts are recognized as adjustments to interest income,
utilizing the effective interest method. Net investments totaled approximately $4.0 billion
as of September 30, 2013, as was the case in 2012. The following table reflects the net
investments breakdown by fund.




                                          19
             Net Investments as of September 30, 2013 and 2012 (in millions)
                      Fund                  2013                2012
           D.C. Federal Pension Fund      $3,430.2           $3,907.2
            Judicial Retirement Fund          133.9              140.4
                      Total               $3,564.1           $4,047.6

e. Payments

Annuity Benefit Payments

Pension benefit payments issued by the Office totaled $638.8 million and $10.4 million
from the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for
FY 2013. The Office issued $619.4 million and $10.1 million, respectively, for FY 2012.
DCRB then reimbursed the D.C. Federal Pension Fund $98.8 million for benefit payments
made by Treasury on the District’s behalf. After the DCRB reimbursement, Federal benefit
payments totaled $550.4 million from the D.C. Federal Pension Fund for FY 2013 and
$543.5 million for FY 2012.

Refunds of Employee Contributions

DCRB processes refunds of contributions for active employees and requests payment from
Treasury for the federal portion. During FY 2013, refunds of employee contributions of
nearly $0.3 million were issued to plan participants from the D.C. Federal Pension Fund.
For FY 2012, refunds of employee contributions of nearly $0.4 million were issued to plan
participants from the D.C. Federal Pension Fund. In addition, one contribution refund was
made to a beneficiary of a plan participant in the Judicial Retirement Fund during FY 2013.

Administrative Expenses

The Office funds administrative expenses to support federal responsibilities for the
retirement programs under the Act from the D.C. Federal Pension Fund and the Judicial
Retirement Fund. When administrative expenses related to activities that benefit all of the
retirement programs occur, expenses are usually allocated 99% to the D.C. Federal Pension
Fund and 1% to the Judicial Retirement Fund. The allocation percentages are based on the
number of annuitants covered by each Fund. When expenses benefit only one group, or
when a different allocation is clearly appropriate, expenses are charged accordingly.

In FY 2013, administrative expenses were approximately $11.1 million for the
D.C. Federal Pension Fund and $0.8 million for the Judicial Retirement Fund, for a total of
$11.9 million. In FY 2012, administrative expenses were approximately $12.8 million for
the D.C. Federal Pension Fund and $0.8 million for the Judicial Retirement Fund, for a
total of $13.6 million. The $1.7 million decrease in administrative expenses from FY 2013
from FY 2012 in the D.C. Federal Pension Fund was primarily due to a decrease in
contractual services, amortization, and depreciation.


                                         20
In FY 2013, the Office was subject to the Sequestration Transparency Act of 2012 (Public
Law 112-155-August 7, 2012) required the President to submit to Congress a detailed
report on the sequestration required to be ordered by certain sections of the Balanced
Budget and Emergency Deficit Control Act (2 U.S.C 901a) for fiscal year 2013. The Office
of Management and Budget issued this report and identified the District of Columbia
Federal Pension Fund and the District of Columbia Judicial Retirement and Survivors
Annuity Fund as budget authority subject to sequestration. Although reductions due to
sequestration had no impact on payments to annuitants, the Office did absorb these
reductions in FY 2013 in the area of administrative expenses by delaying approved hiring
actions (leaving vacancies unfilled), and delaying the award of planned contract actions
(postponing planned projects). The table below summarizes these reductions:

           Fund                     Payment Type                 Sequestration Impact
                                   Annuitant Benefit
                                                                          $0.00
    District of Columbia              Payments
   Federal Pension Fund
                               Administrative Expenses                  $867,572
                                   Annuitant Benefit
   District of Columbia                                                   $0.00
                                      Payments
  Judicial Retirement and
  Survivors Annuity Fund                                                $58,064
                               Administrative Expenses

  Total Reduction of the FY 2013 Budget Authority due
                                                                        $925,636
                     to sequestration

The Office’s major administrative expenses consisted of DCRB benefit administration, the
Office’s staff salaries, and benefits, and contractors engaged to provide IT systems support.
Certain costs of the STAR pension/payroll system for hardware, software, and system
development were capitalized as equipment and internal use software. The Office has been
amortizing STAR development costs monthly in the D.C. Federal Pension Fund and the
Judicial Retirement Fund on a five-year schedule. The following table reflects
administrative expenses by fund.

                  Administrative Expenses by Fiscal Year (in millions)
                   Fund                    2013          2012         Difference
         D.C. Federal Pension Fund         $11.1         $12.8          ($1.70)
          Judicial Retirement Fund           0.8           0.8              -
                   Total                   $11.9         $13.6           ($1.70)


Improper Payments Elimination and Recovery Act

On July 22, 2010, the President signed into law the Improper Payments Elimination and
Recovery Act (IPERA), which amends the Improper Payments Information Act (IPIA),
repeals the Recovery Auditing Act and significantly increases agency payment recapture

                                          21
efforts. During FY 2013, the President signed into law the Improper Payments Elimination
and Recovery Improvement Act of 2012 (IPERIA). This law revises portions of IPERA and
further enhances the accuracy and integrity of Federal payments. The following changes
resulted from the revised law: 1) Expanded payment recapture audits to include all types of
payments (including federal employee payments, i.e. salaries and expenses); 2) Extension
of 2.5% threshold of improper payment measurement through FY 2013; and 3) introduced
the Do Not Pay initiative.

Also, in FY 2013, the Office conducted a review of all types of payments to determine
necessary efforts to recapture erroneous payments. The Office reported results from
ongoing benefit payment quality reviews, as well. Payments were reviewed and no high
risk payment types identified. The following initiatives were conducted as a result of
complying with IPERIA requirements:

Do Not Pay Implementation

Do Not Pay (DNP) affords the Office access to data that could help eliminate improper
payments by aiding in identifying and preventing waste, fraud, and abuse. In FY 2013,
ARC Pension Payroll submitted weekly annuitant payroll files to DNP to identify
erroneous payments. In FY 2013, DNP reviewed the Office payment files against multiple
databases. Matches identified by DNP were reviewed by ARC Pension Payroll and
findings were forwarded to DCRB for corrective action.

In FY 2014, the Office will continue to work with Treasury’s Office of the Deputy Chief
Financial Officer (DCFO) to comply with IPERIA.

Prompt Payment Act and Electronic Payments

The Prompt Payment Act was enacted to ensure that suppliers doing business with the
Federal Government are paid by the government in a timely manner. The Office paid 99%
of the 75 invoices received within the timeframes required by the Prompt Payment Act.

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and the
BFS/FMS encourage federal agencies to use electronic payments. In FY 2013, the Office
paid 100% of the 96 payments, which include invoices and travel reimbursements, by
electronic funds transfer. All 96 payments were processed electronically, of which 25%
were paid by credit card. In FY 2012, of the 146 electronic payments made, 17% were
made by credit card.

Benefit Administration Expense Reimbursements

The Office and DCRB have developed a methodology for allocating costs incurred by
DCRB in administering District and Federal benefit payments. The methodology takes into
consideration: (1) the number of active employees, 100% federal annuitants, 100% District
annuitants, and split annuitants; (2) the estimated DCRB resources needed to support these
populations; and (3) the number of employees throughout DCRB who are dedicated to

                                         22
supporting the benefits administration function; and (4) the level of effort associated with
processing Federal benefit payments. The Office and DCRB entered into a cost sharing
agreement for reimbursement of FY 2013 actual expenses. Pursuant to the agreement, the
Office will reimburse DCRB approximately $2.3 million for FY 2013 expenses incurred in
administering Federal benefit payments. The Office reimbursed DCRB $2.2 million in
FY 2012 for expenses incurred in administering Federal benefit payments.

f. Financial Operations

Accounting Support

Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Fiscal Service,
Administrative Resource Center (ARC) Accounting Services provides accounting support
services that include processing accounting transactions such as commercial invoices,
purchase cards, obligations, accruals, and revenue transactions. Transaction processing
consists of a full range of accounting transactions necessary to maintain a complete general
ledger, including budgetary transactions, accounts payable, accounts receivable, and fixed
assets. ARC Fiscal Accounting uses Oracle Federal Financial (Oracle) as the core financial
management system to record and process financial transactions. The Office’s transactions
are entered into Oracle both manually and via custom interfaces from ancillary systems
such as PRISM and GovTrip. ARC Fiscal Accounting also provides a report writer
package called Discoverer, which allows the Office to generate various accounting reports
to monitor obligations and expenditures.

Accounting entries that are recorded in the Oracle accounting system are supported by
Treasury's BFS, FMS Treasury Financial Manual (TFM) to ensure compliance with
standard general ledger reporting requirements. ARC Fiscal Accounting also prepares the
Office’s financial statements and other useful financial management reports.

g. Actuarial Valuation

In FY 2013, Bolton Partners performed the annual actuarial valuation for the Office as
required by the Act. The actuarial valuation is used to determine the pension liability of the
retirement programs administered by the Office. The actuarial liability, as of
October 1, 2013, was determined using the demographic rates from the FY 2009
experience study and economic assumptions in accordance with Statement of Federal
Financial Accounting Standards (SFFAS) No. 33, Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates.

As estimated by the actuary, as of October 1, 2013, the Federal Government’s total liability
for Federal benefit payments under the Police Officers’ and Firefighters’, and Teachers’
Retirement Plans is approximately $9.0 billion. Of the $9.0 billion actuarial liability,
approximately $4.0 billion is funded by assets in the D.C. Federal Pension Fund and $5.0
billion is unfunded.



                                          23
     Bolton Partners determined an actuarial total liability of $192.7 million for the Judges’
     Retirement Plan as of October 1, 2013. Of the $192.7 million actuarial liability,
     approximately $143.9 million is funded by assets in the Judicial Retirement Fund and $48.8
     million is unfunded.

     In FY 2013, an error was discovered in the discounting method used in the FY 2012
     actuarial valuation, and previously issued consolidated financial statements as of
     September 30, 2010, 2011, and 2012. As a result, Bolton Partners issued a revised
     FY 2012 actuarial valuation with revised actuarial total liabilities, actuarial unfunded
     liabilities, and pension expense components for the two funds. The FY 2012 Financial
     Statements and Notes have been restated to reflect these revised numbers.

     h. Reconciliation of District Benefit Payments Project

     Pursuant to the Interim Benefits Administration MOU between the Office and the District,
     once split functionality was established in STAR, the Office was required to conduct a
     reconciliation of the amounts related to past federal and District benefit payments,
     investments and administrative expenses.

     The primary goal of the Reconciliation Project was to calculate District benefit payments
     for plan members who received retirement benefits during the period from October 1, 1997,
     and December 31, 2007, based on the final Split Benefit Regulations and to reconcile these
     payments with amounts actually paid by the District to Treasury during this period. The
     reconciliation of District benefit payments identified amounts owed to Treasury by the
     District for benefit payments during the period between October 1, 1997, and
     December 31, 2007.

     In FY 2013, the Office concluded the reconciliation and issued the Treasury Reconciliation
     Report (TRR). The TRR stated that the amount of approximately $31.5 million was due
     from the District to Treasury for the reconciliation of District benefit payments. Based on
     the findings of an audit of the TRR, the Office adjusted the amount due and in June 2013
     requested payment from the District for approximately $30.9 million. The Office
     established a receivable for the funds in June 2013, and payment in the total amount was
     received by Treasury on March 31, 2014.

C.   Program is effectively managed and creates continuous improvement

1.   Program Results

     a. Long-Term Strategic Planning

     During FY 2013, the Office of D.C. Pensions (the Office) continued to implement activities
     associated with achieving goals outlined in the program’s future focus areas identified in
     FY 2010. In FY 2010, the Office completed a Multi-Year Plan for FY 2011 through
     FY 2013, which identified five future focus areas. An implementation approach was
     developed to assist in the sequencing of activities needed to implement the plan. The

                                               24
Office organized and participated in joint short- and long-term planning activities with the
District of Columbia Retirement Board (DCRB) and Bureau of the Fiscal Service (BFS),
Administrative Resource Center (ARC), where appropriate, in order to maximize
coordination of activities for FY 2013 and FY 2014. This collaborative planning approach
minimizes the possibility of redundancies or oversights and improves processing
efficiencies. In FY 2014, the Multi-Year Plan will be updated to reflect the upcoming two
year cycle.

In FY 2014, the Office will focus on benefits administration projects related to error
corrections and quality assurance, in addition to working with DCRB to support their
implementation of new business processes.

b. Program Management

In FY 2013, the Program Management Group (PMG) was expanded to include the Service
Lead for Retirement Services (such as Benefits Administration) and the Service Lead for
Technical Services (such as Information Technology, Annuitant Payroll, and Financial
management). The PMG focused on quality and risk management, and performance
reporting activities. The new performance measurement reporting tool, which includes
historical and current performance data, was utilized to improve communications and
decision making.

c. Service Level Agreements

The Office has Service Level Agreements (SLAs) in place with DCRB for benefit
administration and with ARC for the System To Administer Retirement (STAR)
administration and hosting, annuitant payroll operations, and financial management
services. In FY 2013, the SLAs were reviewed and modified to more accurately define
responsibilities, required services, and reporting requirements for service providers and to
ensure the Office in providing high quality service to annuitants. In addition, the Office
has established quality plans and conducts periodic reviews to ensure responsibilities are
executed.

d. Quality Program

Benefits Administration

As part of the Office’s Quality Program, quality plans were established to review benefit
administration activities such as new annuitant calculations, which include new retirees,
survivors, beneficiaries, and Qualified Domestic Relation Orders (QDROs). The benefits
administration quality plans are periodically reviewed and revised to ensure benefits
processing errors are identified. In FY 2013, the Office completed quality reviews for
annuitant payments through the September 1, 2013 pay date. The Office realized a
decrease in the monetary error rate during FY 2013. In FY 2014, the Office will address
audit recommendations and focus its reviews on areas identified during the annual financial
statement audit.

                                          25
In addition, the Office continued to review data maintenance activities, such as changes to
annuitants’ personal data, bank information, health benefits, and life insurance. As part of
the quality program, the Office provided appropriate feedback to DCRB to assess training
needs for the staff. DCRB has developed training to strengthen the knowledge base
governing the rules and regulations.

Payroll Processing

The Office’s Quality Program includes reviews of payroll processing functions. The
program reviews preliminary and final payroll statistics, large annuitant payments, and
third-party reporting. In addition to the aforementioned reports, each month the Office
monitors death verification, Do Not Pay (DNP) notifications, the split discrepancy,
outstanding issues, and stale dated checks and payment reclamations. In addition, the
Office reviews the Split Reimbursement Summary Report and meets with stakeholders
monthly to discuss split activity. These reviews ensure that the split benefits are reported
in a timely and accurate manner.

System Administration

During FY 2013, the Office continued to include system administration activities and the
review of user accounts in its Quality Program. The quality plan tracks system availability,
number and type of open production trouble tickets and completion time of trouble tickets.
As part of the quality review, user accounts are reviewed semi-annually to ensure that users
have the least amount of access privileges necessary to perform their duties. This
information is used by the Office to manage resources, maintain system security, and track
the quality of STAR production support and hosting services.

e. Office of D.C. Pensions Program Performance Reporting

In FY 2013, the Office tracked, collected, and reported performance data in an effort to
continue to promote transparency, and improve decision making using the performance
measurement reporting tool developed and deployed in FY 2012. The tool includes
historical performance data (since FY 2008) in the areas of benefit administration quality
reviews, payroll statistics, debt collection, federal refund requests, and information
technology. The performance measures are reported and reviewed during the Office’s
monthly quality review meeting. The performance data is utilized to make improvements
in program management areas, such as operational planning and resource needs
assessments.

f. District of Columbia Retirement Board Performance Reporting

DCRB continued to collect performance data and prepared quarterly performance reports
during FY 2013. The performance reports track the volume, timeliness, and quality of the
pension and payroll processing services, as well as customer satisfaction. In addition,
DCRB continues to analyze the performance reports to identify trends to identify

                                           26
opportunities for improvement or to determine if corrective actions are necessary. DCRB
also provides data on a monthly basis which is used to support the Office’s program
performance reporting.

g. STAR End-User Forum

The STAR end-user forum is a platform for DCRB to present and discuss benefit
administration program enhancement ideas aimed at improving benefits processing and
customer service. The forum is used as a training vehicle by which users can be informed
of new benefit administration processes, as well as reinforce processes already established.
Additionally, STAR system changes are communicated to end-users at the forums. The
Office continues to receive positive feedback on the STAR end-user forum and will
continue to meet periodically in FY 2014 to identify areas for improvement.

h. Risk Management Program

In FY 2013, the Office revised the Risk Management Program. The revisions included
updating the risk management plan, redefining program risks as well as revising the risk
management objectives and developing new roles and responsibilities for the program.

i. Split Benefit Regulations

In FY 2010, the Office completed drafting proposed amendments to Part 29, Subpart C of
Title 31 of the Code of Federal Regulations, Federal Benefit Payments Under Certain
District of Columbia Retirement Plans - Split Benefits (“Split Benefit Regulations”).
Pursuant to the Balanced Budget Act of 1997, as amended (the Act), the Office has
responsibility for payment of benefits based on service accrued as of June 30, 1997, under
the retirement plans for District of Columbia teachers and police officers and firefighters.

Under the Act, some annuitants receive both Federal and District benefit payments as a
portion of their total retirement benefit based on service before or after June 30, 1997.
Benefits initially paid by Treasury, but funded by both Treasury and the District of
Columbia are referred to as split benefits. The Split Benefit Regulations establish general
principles that are applied to determine the amount of service creditable for Federal benefit
payments and include examples in which the general principles are applied to a variety of
benefit calculation scenarios.

The Split Benefit Regulations were originally published in FY 2000, but the effective date
was delayed until after STAR was fully implemented. With the major development of
STAR completed, the Office amended the Split Benefit Regulations to establish additional
rules to simplify calculations and provide additional examples of benefit calculation
scenarios. In FY 2011, the Office published proposed regulations for comment. The final
Split Benefit Regulations were published in the Federal Register on October 19, 2012, with
an effective date of November 19, 2012. These regulations maintain consistency with the
general principles established in the original regulations.



                                          27
j. Internal Control over Financial Reporting

The Office used the FY 2013 Guidance and Implementation Plan provided by Treasury’s
Office of the Deputy Chief Financial Officer (DCFO) to conduct a review of internal
controls over financial reporting as required by OMB Circular A-123, Management’s
Responsibility for Internal Controls, Appendix A, Internal Control Over Financial
Reporting. ARC Fiscal Accounting staff members and the Office conducted internal
control tests or relied on the BFS/ARC Statement on Standards for Attestation
Engagements No. 16 (SSAE 16) review.

The Office conducted its assessment of the effectiveness of internal controls over financial
reporting as of June 30, 2013, which included reviewing core financial processes and
compliance with applicable laws and regulations, in accordance with the requirements of
Appendix A of OMB Circular A-123. Based on the results of this evaluation, the Office
provided unqualified assurance that its internal controls over financial reporting were
operating effectively and no material weaknesses were found in the design or operation of
the internal controls over financial reporting. However, the independent auditor’s review
of the Office’s internal control review noted opportunities to strengthen internal controls
and improve segregation of duties and documentation. The scope of the assessment was
limited to the Treasury-designated material consolidated financial statement lines for which
the Office contributes 10% or greater and internal financial reports produced for the Office.

During the performance of the audit of the Office’s FY 2013 financial statements, the
auditors identified a material weakness in the design or operation of internal controls over
financial reporting related to the third party actuary’s calculation of the discounted pension
benefit payments. A corrective action plan is underway.

k. Financial Statement Audit Opinion

KPMG LLP (KPMG), an independent public accounting firm, rendered an unmodified
opinion on the Office’s FY 2013 financial statements. This is the 15th consecutive year
that the Office’s financial statements have received an unmodified opinion.

KPMG noted a material weakness in the Office internal controls over financial reporting.
Also, results of KPMG’s tests of compliance with laws and regulations disclosed no
instances of noncompliance or other matters that require reporting under Government
Auditing Standards or OMB Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements, as amended.




                                           28
IV. Five-Year History of the District of Columbia Pensions Program

             A. Annuitants (as of September 30, 2013)

                         Police Officers’ and Firefighters’,
                         and Teachers’ Retirement Plans

            16
                                                                      Police/Fire
                                                                      Teachers
            14
                          7,617     7,642       7,708     7,725
                 7,599
            12


            10
                                                                  Pension Population
Thousands




                                                                   Year   Annuitants
             8                                                     2009     13,622
                                                                   2010     13,746
                                                                   2011     13,747
             6                                                     2012     13,875
                 6,023    6,129      6,105      6,167     6,175    2013     13,900

             4


             2


             0
                  2009     2010       2011      2012       2013




                          Judges’ Retirement    Plan
            95


            90                                   92
                                                           91
                                      88
            85


            80             82

                  75
            75


            70


            65
                  2009     2010      2011       2012       2013




                                                29
              B.          Investments (as of September 30, 2013)


                                                   D.C. Federal Pension Fund
                                                        Net Investments
                         $4




                                                                         3.907
                                                           3.879
                                          3.817
                                3.710




                                                                                     3.430
                                                                                               All funds are
                         $3                                                                    invested in non-
                                                                                               marketable
                                                                                               Government
                                                                                               Account Series
                                                                                               (GAS) securities.
              Billions




                         $2



                         $1



                         $0
                               2009     2010              2011          2012       *2013




                                                  Judicial Retirement Fund
                                                      Net Investments
                    $142

                    $140
                                                                         140.4




                    $138
                                                           136.9




                    $136
                                                                                                  All funds are
                                                                                                  invested in non-
                    $134                                                                          marketable
   Millions




                                                                                      133.9




                                                                                                  Government
                                          132.5




                    $132                                                                          Account Series
                                                                                                  (GAS) securities.
                    $130
                               128.8




                    $128

                    $126

                    $124

                    $122
                              2009       2010             2011          2012        *2013



*The decrease in Net Investments from FY 2012 to FY 2013 is primarily attributable to monies collected ($505
million in annual appropriations received and $8 million for the District’s share of the monthly annuity payroll) that
were not invested as of September 30, 2013 due to a timing difference.

                                                                   30
           B.                   Investments (as of September 30, 2013) continued


                                                             Investment Average Annual
                                                                   Rate of Return*
                           4%




                           3%         3.8
                                                       3.6                                                                              2009
                                                                        3.3
Rate of Return




                                                                                          2.8                                           2010
                           2%                                                                               2.3                         2011
                                                                                                                                        2012
                                                                                                                                        2013

                           1%




                           0%
                                                              D.C. Federal Pension Fund

                 *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                 average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                 premiums and discounts.




                                                                 Investment Average Annual
                                                                       Rate of Return*
                            5%



                            4%
                                            3.9
                                                           3.5            3.4                                                           2009
          Rate of Return




                            3%                                                            3.2                                           2010
                                                                                                          3.0                           2011
                                                                                                                                        2012
                            2%
                                                                                                                                        2013


                            1%



                            0%
                                                             Judicial Retirement Fund


                      *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                      average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                      premiums and discounts.




                                                                             31
           C. Payments by Category (as of September 30, 2013)

                               Federal Benefits, Refunds, and Administrative Expenses


            $600


            $500


            $400
                                                                                           Federal Benefits &
                                                                                           Refunds
Millions




            $300
                                                                                           Administrative
                                                                                           Expenses*
            $200


            $100


              $0
                        2009         2010          2011         2012      2013

     *Administrative expenses include, but are not limited to, (a) expenses paid to the District for

     administration of Federal benefits, (b) expenses for ODCP salaries, and (c) expenses associated
     with contractor support. It does not include reimbursement from the District for STAR-related
     administrative expenses incurred by ODCP in support of District benefits.




                        Federal Benefits, Refunds, and Administrative Expenses


               Fiscal          Federal Benefits/     Administrative    Federal Benefits/    Administrative
               Year             Refunds Paid          Expenses*          Refunds %           Expenses %

               2009                 $524M                 $15.3M             97%                   3%


               2010                 $528M                 $14.0M             97%                   3%


               2011                 $536M                 $17.0M             97%                   3%


               2012                 $544M                 $13.6M             97%                   3%


               2013                 $550M                 $11.9M             98%                   2%



           *Administrative  expenses include, but are not limited to, (a) expenses paid to the District for
           administration of Federal benefits, (b) expenses for ODCP salaries, and (c) expenses associated
           with contractor support. It does not include reimbursement from the District for STAR-related
           administrative expenses incurred by ODCP in support of District benefits.



                                                           32
V.   Limitation of the Financial Statements

     The consolidated financial statements have been prepared to report the financial position
     and results of operations of the Office of D.C. Pensions (the Office), pursuant to the
     requirements of the 31 U.S.C. 3515(b).

     While the statements have been prepared from the books and records of the Office in
     accordance with U.S. generally accepted accounting principles for federal entities and the
     formats prescribed by the Office of Management and Budget, the statements are in
     addition to the financial reports used to monitor and control budgetary resources which
     are prepared from the same books and records.

     The statements should be read with the realization that they are for a component of the
     U.S. Government, a sovereign entity.




                                             33
(This page left intentionally blank.)
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the U.S. Department of the
Treasury’s Office of D.C. Pensions (the ODCP), which comprise the consolidated balance sheets as of
September 30, 2013 and 2012, and the related consolidated statements of net cost, and changes in net
position, and combined statements of budgetary resources for the years then ended, and the related notes to
the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.



                                                           37

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of the Treasury’s Office of D.C. Pensions as of
September 30, 2013 and 2012, and its net costs, changes in net position, and budgetary resources for the
years then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matter

As discussed in Notes 1p and 11 to the consolidated financial statements, the 2012 consolidated financial
statements have been restated to correct a material misstatement. As a result, our previously issued
independent auditors’ reports on the 2010, 2011 and 2012 consolidated financial statements dated
December 6, 2010, December 5, 2011, and December 12, 2012, have been withdrawn. Our opinion is not
modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis (MD&A) and the Combining Statement of Budgetary Resources be presented to supplement
the basic consolidated financial statements. Such information, although not a part of the basic consolidated
financial statements, is required by the Federal Accounting Standards Advisory Board who considers it to
be an essential part of financial reporting for placing the basic consolidated financial statements in an
appropriate operational, economic, or historical context.

We have applied certain limited procedures to the MD&A in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the basic consolidated financial statements, and other knowledge we obtained during our
audits of the basic consolidated financial statements. We do not express an opinion or provide any
assurance on the MD&A because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

The Combining Statement of Budgetary Resources presented on page 72 in Part 4: Supplementary
Schedules is the responsibility of management and was derived from and relates directly to the underlying
accounting and other records used to prepare the basic consolidated financial statements. The Combining
Statement of Budgetary Resources has been subjected to the auditing procedures applied in the audit of the
basic consolidated financial statements and certain additional procedures, including comparing and
reconciling such information directly to the underlying accounting and other records used to prepare the
basic consolidated financial statements or to the basic consolidated financial statements themselves, and
other additional procedures in accordance with auditing standards generally accepted in the United States
of America. In our opinion, the Combining Statement of Budgetary Resources is fairly stated in all material
respects in relation to the basic consolidated financial statements as a whole.

Supplementary and Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The September 30, 2013 and 2012 consolidating information presented on
pages 69 to 71, and page 73 in Part 4: Supplementary Schedules and the Other Information included in Part
5 are presented for purposes of additional analysis of the consolidated financial statements and are not a
required part of the basic consolidated financial statements.

                                                 38
The consolidating information is the responsibility of management and was derived from and relates
directly to the underlying accounting and other records used to prepare the basic consolidated financial
statements. The consolidating information has been subjected to the auditing procedures applied in the
audit of the basic consolidated financial statements and certain additional procedures, including comparing
and reconciling such information directly to the underlying accounting and other records used to prepare
the basic consolidated financial statements or to the basic consolidated financial statements themselves,
and other additional procedures in accordance with auditing standards generally accepted in the United
States of America. In our opinion, the consolidating information is fairly stated in all material respects in
relation to the basic consolidated financial statements as a whole.

The Other Information included in Part 5 has not been subjected to the auditing procedures applied in the
audits of the basic consolidated financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated May 28, 2014 on
our consideration of the ODCP’s internal control over financial reporting, which includes a description of
the material weakness in internal control over financial reporting that failed to prevent or detect the
misstatement, referred to in the Emphasis of Matter Paragraph, and the actions management is taking to
address the deficiency, and our report dated May 28, 2014 on our tests of its compliance with certain
provisions of laws, regulations, and contracts and other matters. The purpose of those reports is to describe
the scope of our testing of internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on the internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards in considering ODCP’s internal control over financial reporting and compliance.




May 28, 2014




                                                  39
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of the Treasury’s Office of D.C. Pensions (the ODCP), which comprise the
consolidated balance sheets as of September 30, 2013 and 2012, and the related consolidated statements of
net cost, and changes in net position, and combined statements of budgetary resources for the years then
ended, and the related notes to the consolidated financial statements, and have issued our report thereon
dated May 28, 2014. That report recognized that the 2012 consolidated financial statements have been
restated to correct a misstatement.

Internal Control Over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the ODCP’s internal control over financial reporting (internal control)
to determine the audit procedures that are appropriate in the circumstances for the purpose of expressing
our opinion on the consolidated financial statements, but not for the purpose of expressing an opinion on
the effectiveness of the ODCP’s internal control. Accordingly, we do not express an opinion on the
effectiveness of the ODCP’s internal control. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

Our consideration of internal control was for the limited purpose described in the preceding paragraph and
was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and therefore, material weaknesses or significant deficiencies may exist that have
not been identified. However, as described in Exhibits I and II, we identified certain deficiencies in internal
control that we consider to be a material weakness and a significant deficiency, respectively.

A deficiency in internal control exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent, or detect and correct,
misstatements on a timely basis. A material weakness is a deficiency, or a combination of deficiencies, in
internal control such that there is a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected on a timely basis. We consider the
deficiency described in Exhibit I to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with governance.
We consider the deficiencies described in Exhibit II collectively to be a significant deficiency.




                                                            40

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
ODCP’s Responses to Findings

The ODCP’s responses to the significant deficiency and material weakness identified in our audit are
described in Exhibits I and II. The ODCP’s responses were not subjected to the auditing procedures
applied in the audit of the consolidated financial statements and, accordingly, we express no opinion on the
responses.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of the ODCP’s internal control. This report
is an integral part of an audit performed in accordance with Government Auditing Standards in considering
the ODCP’s internal control. Accordingly, this communication is not suitable for any other purpose.




May 28, 2014




                                                  41
                                                                                                     Exhibit I

                                U.S. Department of the Treasury
                                     Office of D.C. Pensions
            Independent Auditors’ Report on Internal Control over Financial Reporting
                                      Schedule of Findings
                                       Material Weakness

ODCP’s Review Controls over Actuarial Pension Liability Should be Improved

ODCP is required by statute to engage the services of a third party actuary to develop the actuarial pension
liability as of each fiscal year end. The actuarial valuations for the fiscal years (FY) ended September 30,
2010 through 2012 were prepared by ODCP’s former actuaries under a contract that expired in FY 2012.
In FY 2013, the IRS Office of Treasury Procurement Services (OTPS) issued a solicitation for actuarial
services for ODCP for the actuarial valuation as of September 30, 2013 and awarded the contract to
different actuaries. During the FY 2013 audit of the ODCP’s financial statements, ODCP management
made KPMG aware that the current actuaries determined that there was an error in the calculation of the
September 30, 2012 actuarial pension liability as a result of an error in the discounting of the projected
benefit payments which was used to arrive at the present value as of September 30, 2012.

In FY 2010, ODCP was required to implement the provisions of Statement of Federal Financial
Accounting Standards 33 (SFFAS 33), Pensions, Other Retirement Benefits, and Other Postemployment
Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and
Valuation Dates. One of the requirements of implementing this standard was to change the discount rates
that ODCP was using to discount projected benefit payments from forward rates based on experience up to
year 5 and based on assumptions for year 6 and thereafter to specific spot rates for each year based on the
10 year average historical rates on zero coupon bonds of the same duration as the projected cash flows.
Upon implementation of this standard, the former actuaries used the correct interest rates, but failed to
apply them to the cash flows correctly. This had the effect of discounting a portion of the projected benefit
streams for each year after year 1 at interest rates lower than the average historical rate for that particular
year.

Upon further investigation, ODCP management also determined that this same erroneous methodology
was used in the former actuaries’ calculation of the actuarial pension liability as of September 30, 2010
and 2011. These miscalculations resulted in overstatements of the actuarial pension liability and the
related expense in the ODCP financial statements as of and for the years ended September 30, 2010,
2011, and 2012. As of September 30, 2012, the overstatement was $848 million. As a result, the ODCP
FY 2012 financial statements were restated.

ODCP did not have controls designed, implemented or operating effectively to prevent, detect, or correct
the error described above.

Statement of Federal Financial Accounting Standards 33 (SFFAS 33), Pensions, Other Retirement
Benefits, and Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates requires:

    “Discount rates as of the reporting date for present value measurements of pension, ORB, and
    OPEB liabilities should be based on interest rates on marketable Treasury securities with
    maturities consistent with the cash flows being discounted. The discount rates should be matched
    with the expected timing of the associated expected cash flow. Thus, cash flows projected in each
    period should have a discount rate associated with them. However, one discount rate may be used
    for all projected future cash flows if the resulting present value is not materially different than the

                                                      42
                                                                                                   Exhibit I

                                U.S. Department of the Treasury
                                     Office of D.C. Pensions
            Independent Auditors’ Report on Internal Control over Financial Reporting
                                      Schedule of Findings
                                       Material Weakness

    resulting present value using multiple rates. A change to or from multiple rates from or to a single
    rate should be disclosed.

    The discount rates as of the reporting date should reflect average historical rates on marketable
    Treasury securities rather than giving undue weight to the current or very recent past experience
    of such rates. Historical experience should be the basis for expectations about future trends in
    marketable Treasury securities. The discount rate, the underlying inflation rate, and the other
    economic assumptions should be consistent with one another.

    In developing average historical Treasury rates, a minimum of five historical rates as of the
    reporting date (e.g., at the current and four prior fiscal year ends) should be used for each
    maturity. The historical rates used to calculate the average should be sequential (e.g., 2003-
    2007). For example, for an average historical Treasury rate to be used as the discount rate as of
    the end of fiscal year 2007 for a payment due in 10 years (i.e., in fiscal 2017), a minimum of the
    five most recent fiscal year-end historical rates on 10-year Treasury securities should be used.
    Thus, the rate on 10-year Treasury securities as of the end of fiscal year 2007 would be one of the
    five historical rates used in the average, the rate on 10-year Treasury securities as of the end of
    fiscal year 2006 would be another rate, etc., until, at a minimum, the rates on 10- year Treasury
    securities as of the end of fiscal years 2003 through 2007 would be included in the average.

    The number of historical rates used in the calculation of the average as explained in paragraph 30,
    e.g., five fiscal year-end rates, should be consistent from period to period. The entity's accounting
    policy disclosures should include its policy regarding consistency from one reporting period to
    the next.

    In the determination of the historical Treasury rates used, for cash flows that are projected to
    occur in future years for which Treasury securities are or were not available or that are expected
    beyond the maturities at which Treasury securities are available, e.g., beyond the 30-year
    security, the preparer should incorporate into the determination of the discount rate interest rates
    interpolated or extrapolated from historical Treasury rates.”

Recommendation:

We recommend that ODCP strengthen its internal controls over the actuarial pension liability by
developing procedures which formalize and detail the review process for accepting the enrolled actuary’s
contract deliverables.

Management’s Response:

ODCP will develop procedures which formalize and detail the review process for accepting the enrolled
actuary's contract deliverables.




                                                     43
                                                                                                 Exhibit II

                                U.S. Department of the Treasury
                                     Office of D.C. Pensions
            Independent Auditors’ Report on Internal Control over Financial Reporting
                                      Schedule of Findings
                                     Significant Deficiency

DCRB Supervisory Review Controls and ODCP Monitoring Controls over Annuitant Benefit Payments
need Improvement (Repeat Condition)

The District of Columbia Retirement Board (DCRB) and ODCP continued to make progress to resolve
weaknesses identified in the previous year relating to processing annuitant benefit payments in FY 2013.
However, more improvement is still required to prevent and detect errors in processing annuitant
transactions in the System to Administration Retirement (STAR).

During our FY 2013 audit, we again identified weaknesses in the controls over processing annuitant
benefit payments by DCRB for the Police & Firefighters and Teacher retirement plans that we consider
collectively to be a significant deficiency. Specifically, during our testing of 79 new annuitant payments
amounting to $1.8 million and 20 off-cycle payments processed in STAR amounting to $226,716, we
noted that the DCRB second reviewers or ODCP monitoring controls failed to identify the following
errors made by the DCRB analyst:

    For nine of the 79 new annuitants tested, we noted:
        One incorrect classification of an annuitant as a Firefighter instead of as a Police Officer.
        One incorrect classification of the annuitant as a survivor of a retired Metro Police Office instead
        of a retired Metro Police Officer.
        One instance where the STAR split-benefit allocation percentage between the District of
        Columbia and Federal government was incorrectly calculated for the beneficiary of a retired
        teacher survivor; however the error of $96,593 was detected and corrected by ODCP during the
        monthly reconciliation review, so the liability was not overstated.
        Five new annuitants were overpaid. Total overpayment was approximately $1,089.
        One new annuitant was underpaid by approximately $3,310.

    We noted that the two classification errors referenced above did not affect the annuitant’s payment
    calculation and were subsequently corrected by ODCP and DCRB.

    For one of the 20 off-cycle payments tested, one annuitant was underpaid by approximately $466.

The primary cause of these errors is that the analysts did not perform adequate self-review of their work.
Additionally, the second reviewer at DCRB did not perform an adequate level of review over data inputs
for new annuitants processed in STAR.

The Memorandum of Understanding (MOU) between ODCP and DCRB – Considering Benefit
Administration of Retirement Programs dated September 26, 2005, specifies the obligations of the
DCRB. Specifically, MOU section 4.1(g) requires DCRB to enforce all terms of the District Retirement
Programs and the Replacement Plan to ensure accurate payments of Federal Benefit Payments and
District Payments.

Federal Register Vol. 77, No.203 31 CFR Part 29, Federal Benefit Payments Under Certain District of
Columbia Retirement Plans: Treasury has responsibility for payment of benefits based on service accrued
as of June 30, 1997, under the retirement plans for District of Columbia teachers, police officers, and


                                                    44
                                                                                                  Exhibit II

                                U.S. Department of the Treasury
                                     Office of D.C. Pensions
            Independent Auditors’ Report on Internal Control over Financial Reporting
                                      Schedule of Findings
                                     Significant Deficiency

firefighters. Benefits for service after that date, and certain other benefits, are funded by the District of
Columbia.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, in the introduction section
notes the requirements of the Federal Managers’ Financial Integrity Act (FMFIA) of 1982: “The agency
head must establish controls that reasonably ensure that …iii. Revenues and expenditures applicable to
agency operations are properly recorded and accounted for to permit the preparation of accounts and
reliable financial and statistical reports and to maintain accountability over the assets.”

In addition, U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government (GAO/AIMD-00-21.3.1) states: “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the creation and
maintenance of related records which provide evidence of execution of these activities as well as
appropriate documentation. Control activities may be applied in a computerized information system
environment or through manual processes.”

The Standards also provides examples of control activities, which include “reviews by management at the
functional or activity level.”

Recommendation:

We continue to recommend that the ODCP conduct further training with the DCRB analysts and second
reviewers so they fully understand their roles and responsibilities associated with the benefit payment
process.

Management’s Response:

Further training will be conducted with DCRB analysts and second reviewers emphasizing roles and
responsibilities associated with the benefit payment process.




                                                     45
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of the Treasury’s Office of D.C. Pensions (the ODCP), which comprise the
consolidated balance sheets as of September 30, 2013 and 2012, and the related consolidated statements of
net cost, and changes in net position, and combined statements of budgetary resources for the years then
ended, and the related notes to the consolidated financial statements, and have issued our report thereon
dated May 28, 2014. That report recognized that the 2012 consolidated financial statements have been
restated to correct a misstatement.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the ODCP’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of compliance disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the ODCP’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the ODCP’s compliance.
Accordingly, this communication is not suitable for any other purpose.




May 28, 2014




                                                            46

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2013 and September 30, 2012
(in thousands)

                                                                                                Restated
                                                                             2013                2012
Assets:
      Intragovernmental
           Fund Balance with Treasury (Note 2)                 $                  514,544   $             500
           Investments, Net (Note 3)                                            3,564,139           4,047,649
           Interest Receivable                                                     35,118              35,175
           Advances to Others                                                          41                  53
      Total Intragovernmental                                                   4,113,842           4,083,377
      Accounts Receivable, Net (Note 4)                                            33,495               9,109
      ADP Software, Net (Note 5)                                                       17                 224
      Equipment, Net (Note 6)                                                           -                   -
Total Assets                                                   $                4,147,354   $       4,092,710

Liabilities:
   Liabilities Covered by Budgetary Resources
      Intragovernmental
            Accounts Payable                                   $                       47   $              57
            Accrued Payroll and Benefits                                               12                  34
      Total Intragovernmental                                                          59                  91
      Accounts Payable                                                              2,403               3,241
      Accrued Pension Benefits Payable                                             54,471              53,340
      Actuarial Pension Liability (Notes 1j, 9)                                 3,789,526           3,705,529
      Accrued Payroll and Benefits                                                    227                 354
   Total Liabilities Covered by Budgetary Resources                             3,846,686           3,762,555

  Liabilities Not Covered by Budgetary Resources
      Actuarial Pension Liability (Notes 1j, 9, 11)                             5,374,237           5,505,145
Total Liabilities                                                               9,220,923           9,267,700

Net Position:
  Cumulative Results of Operations (Note 11)                                  (5,073,569)          (5,174,990)
Total Net Position                                                            (5,073,569)          (5,174,990)

Total Liabilities and Net Position                             $                4,147,354   $       4,092,710

The accompanying notes are an integral part of these financial statements.




                                                          49
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)

                                                                                                      Restated
                                                                                 2013                  2012
Program Costs (Note 7)
  Administrative Expenses (Note 8)                                           $           11,864   $          13,635
  Pension Expense before Actuarial Assumption Changes (Note 9, 11)                      137,182             297,241
Less: Earned Revenues (Note 7)
  Interest Earned                                                                        77,530              98,282
  Benefit Program Revenue                                                                30,894                   -
  Employee Contributions                                                                    617                 577
Net Expense Before Loss from Actuarial Assumption
Changes                                                                                  40,005             212,017

Loss on Actuarial Assumption Changes, Net (Note 9, 11)                                  364,031             602,159
Net Cost of Operations                                                       $          404,036   $         814,176

The accompanying notes are an integral part of these financial statements.




                                                                    50
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)


                                                                                     Restated
                                                               2013                   2012

Cumulative Results of Operations:

Net Position - Beginning of Year                    $            (5,174,990)     $      (5,668,324)

   Correction of Error (Note 11)                                             -             815,318

Beginning Balances, as Restated (Note 11)           $            (5,174,990)     $      (4,853,006)

Budgetary Financing Sources:

    Appropriations Used                                             505,330                492,040

 Other Financing Sources (Nonexchange):
   Imputed Financing                                                     127                    152

 Total Financing Sources                                            505,457                492,192

 Net Cost of Operations (Note 11)                                  (404,036)             (814,176)

 Net Change                                                         101,421              (321,984)

Cumulative Results of Operations (Note 11)          $            (5,073,569)     $      (5,174,990)

Unexpended Appropriations:

 Beginning Balance                                  $                        -   $                -

 Budgetary Financing Sources:

   Appropriations Received                                          505,330                492,040

   Appropriations Used                                             (505,330)             (492,040)

 Total Budgetary Financing Sources                                           -                    -

Total Unexpended Appropriations                                              -                    -

Net Position (Note 11)                              $            (5,073,569)     $      (5,174,990)

The accompanying notes are an integral part of these financial statements.



                                                  51
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)


                                                                             2013                2012
Budgetary Resources
Unobligated Balance Brought Forward, October 1                          $              -     $              -
Recoveries of Prior Year Unpaid Obligations                                        4,345                5,407
Unobligated Balance from Prior Year Budget Authority, Net                          4,345                5,407
Appropriations (Discretionary and Mandatory)                                   1,057,762            1,056,818
Spending Authority from Offsetting Collections                                         3                   10
Total Budgetary Resources                                               $      1,062,110     $      1,062,235

Status of Budgetary Resources
Obligations Incurred                                                    $      1,062,110     $      1,062,235
Total Budgetary Resources                                               $      1,062,110     $      1,062,235

Change in Obligated Balance
Unpaid Obligations, Brought Forward, October 1                          $          62,683    $          60,918
Obligations Incurred                                                            1,062,110            1,062,235
Outlays (Gross)                                                               (1,058,333)          (1,055,063)
Recoveries of Prior Year Unpaid Obligations                                        (4,345)              (5,407)
Unpaid Obligations, End of Year (Gross)                                            62,115               62,683
Obligated Balance, End of Year                                          $          62,115    $          62,683

Budget Authority and Outlays, Net
Budget Authority, Gross (Discretionary and Mandatory)                   $      1,057,765     $      1,056,828
Actual Offsetting Collections (Discretionary and Mandatory)                           (3)                 (10)
Budget Authority, Net (Discretionary and Mandatory)                     $      1,057,762     $      1,056,818

Outlays, Gross (Discretionary and Mandatory)                            $      1,058,333     $      1,055,063
Actual Offsetting Collections (Discretionary and Mandatory)                           (3)                 (10)
Outlays, Net (Discretionary and Mandatory)                                     1,058,330            1,055,053
Distributed Offsetting Receipts                                                (631,807)            (544,052)
Agency Outlays, Net (Discretionary and Mandatory)                       $        426,523     $        511,001

The accompanying notes are an integral part of these financial statements.




                                                                 52
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Notes to Financial Statements
September 30, 2013 and September 30, 2012


1)   Summary of Significant Accounting Policies
     a. Reporting Entity
     Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act), the
     Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
     population of annuitants under the following District of Columbia (District) retirement plans:
     the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan and the
     Judges’ Retirement Plan. Specifically, the Secretary is responsible for administering the
     retirement benefits earned by District teachers, police officers and firefighters based upon
     service accrued prior to July 1, 1997, and retirement benefits earned by District judges,
     regardless of when service accrued.

     The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
     (2) investing fund assets; and (3) funding pension benefits. To carry out these responsibilities,
     Treasury’s Office of D.C. Pensions (the Office) engages in a wide range of legal, policy and
     operational activities in the areas of benefits administration, information technology, financial
     management and administration. The Office coordinates with many District entities and
     stakeholders to administer its responsibilities.

     The Office reports to the Deputy Assistant Secretary for Human Resources and Chief Human
     Capital Officer (DASHR). The DASHR reports to the Acting Assistant Secretary for
     Management (ASM). ASM reports through the Deputy Secretary to the Secretary of the
     Treasury.

     District of Columbia Teachers, Police Officers, and Firefighters Federal Pension Fund
     Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004, Public
     Law 108-489, Treasury established the District of Columbia Teachers, Police Officers, and
     Firefighters Federal Pension Fund (the D.C. Federal Pension Fund – 20X5511). Effective
     October 1, 2004, the assets and liabilities of the District of Columbia Federal Pension Liability
     Trust Fund (the Trust Fund - 20X8230) and the Federal Supplemental District of Columbia
     Pension Fund (the Supplemental Fund – 20X5500) were transferred to the D.C. Federal Pension
     Fund. The D.C. Federal Pension Fund is used for the accumulation of funds to finance
     obligations of the Federal Government for benefits and necessary administrative expenses for
     the Police Officers’ and Firefighters’, and Teachers’ Retirement Plans under the provisions of
     the Act. The D.C. Federal Pension Fund consists of the following:
        Amounts deposited from the proceeds of assets transferred from the Trust Fund and the
         Supplemental Fund, which included the proceeds of assets transferred to Treasury from the
         District of Columbia Retirement Board (DCRB) pursuant to the Act;
        Amounts deposited from the General Fund of the Treasury;
                                                  53
   Income earned on the investments held in the D.C. Federal Pension Fund; and
   Reimbursement from the D.C. Government for the District’s actual share of benefits paid
    from the D.C. Federal Pension Fund.
The portion of the D.C. Federal Pension Fund that is not needed to meet the level of current
Federal benefit payments, refunds, and net administrative expenses is invested in non-
marketable Government Account Series (GAS) securities issued by the Treasury’s Bureau of
the Fiscal Service (BFS). Investments are made in securities with maturities suitable to the
needs of the D.C. Federal Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the D.C. Federal
Pension Fund (from the General Fund of the Treasury) an annual amortization amount and,
beginning in FY 2009, the covered administrative expenses for the year. The annual
amortization amount, as determined by an enrolled actuary, is the amount necessary to amortize
the original unfunded liabilities of the retirement programs assumed by the Federal Government
over 30 years, the net experience gains or losses over 10 years, and any other changes in
actuarial liability over 20 years. The amounts paid into the D.C. Federal Pension Fund during
FY 2013 and FY 2012 were $495.9 million and $482.4 million, respectively.
District of Columbia Judicial Retirement and Survivors Annuity Fund

Pursuant to the Act, Treasury established the District of Columbia Judicial Retirement and
Survivors Annuity Fund (the Judicial Retirement Fund – 20X8212).
The Judicial Retirement Fund is used for the accumulation of funds to finance obligations of the
Federal Government for benefits and necessary administrative expenses of the Judges’ Plan
under the provisions of the Act.
The Judicial Retirement Fund consists of the following:
   Amounts deposited from the proceeds of assets transferred to Treasury from the District of
    Columbia Retirement Board (DCRB) pursuant to the Act;
   Amounts deposited from the General Fund of the Treasury;
   Income earned on the investments held in the Judicial Retirement Fund; and
   Employee contributions to the Judicial Retirement Fund.
The portion of the Fund that is not needed to meet the level of current benefit payments, refunds
and net administrative expenses is invested in GAS securities. Investments are made in
securities with maturities suitable to the needs of the Judicial Retirement Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the Judicial Retirement
Fund (from the General Fund of the Treasury) an amount equal to the normal cost for the year,
an annual amortization amount and the covered administrative expenses for the year. The
annual amortization amount, as determined by an enrolled actuary, is the amount necessary to
amortize the original unfunded liability of the retirement program assumed by the Federal
Government over 30 years, the net experience gains or losses over 10 years, and any other
changes in actuarial liability over 20 years. The annual payment to the Judicial Retirement
                                              54
Fund also includes an amount necessary to fund the normal cost of the retirement program not
covered by employee contributions. The amounts paid into the Judicial Retirement Fund during
FY 2013 and FY 2012 were $9.4 million and $9.6 million, respectively.

b. Basis of Accounting and Presentation
The Office’s financial statements consist of the Consolidated Balance Sheets, the Consolidated
Statements of Net Cost and the Consolidated Statements of Changes in Net Position, and the
Combined Statements of Budgetary Resources, and the related notes, all of which are
prescribed by Office of Management and Budget (OMB) Circular A-136, Financial Reporting
Requirements. The financial statements have been prepared from the accounting records of the
Office in accordance with accounting principles generally accepted in the United States of
America. Accounting principles generally accepted in the United States of America for federal
entities are prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is
designated as the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants. The financial statements are different from
the financial reports, also prepared by the Office, pursuant to OMB directives that are used to
monitor and control the Office’s use of budgetary resources. These financial statements present
the consolidated activities and balances of the D.C. Federal Pension Fund and the Judicial
Retirement Fund. There were no transactions between the Funds that require elimination during
consolidation.
c. Fund Balance with Treasury
Fund Balance with Treasury represents appropriated funds from which the Office is authorized
to make expenditures and pay liabilities resulting from operational activity, except as restricted
by law.
d. Investments, Net
Pursuant to the Act and Section 130 of Division A of Public Law 105-277 (1998), the Secretary
invests the assets of the D.C. Federal Pension Fund and the Judicial Retirement Fund in GAS,
market-based (“MK”) securities — special non-marketable Treasury securities that mirror the
prices of marketable securities with similar terms, issued and redeemed by BPD. The Office
follows Treasury's investment policy guidelines and determines whether the investments should
be made in MK bills, MK notes, or MK bonds. The maturities on investments range from less
than one year to approximately ten years.
Amounts that are not necessary to meet current obligations are invested in MK securities.
Amounts needed to meet current obligations are invested overnight in one-day MK securities,
which are redeemed at face value plus accrued interest. If amounts held in cash, overnight
securities and maturing securities are inadequate to meet required outlays, investments would
be selected for redemption based on a review of the advantages of each of the alternatives and
an assessment of the appropriateness of the securities in the portfolio under current investment
policy.
Investments are valued at cost, adjusted for unamortized premiums and discounts, if applicable.
The premiums and discounts are recognized as adjustments to interest income, utilizing the
effective interest method.

                                             55
e. Advances to Others
The carrying amount of advances and prepayments to the Department of the Treasury’s
Working Capital Fund approximate fair value as they represent the amounts expected to be paid
for certain common administrative services such as telecommunications and information
technology services.
f. Accounts Receivable, Net
Accounts receivable consist primarily of:

 The amount due from the D.C. Government for the District’s share of benefits paid by the
  Office to which the recipients became entitled during the reporting period, but which, by law,
  are paid on the first business day of the subsequent period
 Amounts due from the D.C. Government for the District’s estimated share of refunds paid
  by the Office in prior years
 Employee retirement contributions withheld from judges’ salaries not yet transferred from
  the General Services Administration to the Judicial Retirement Fund before the end of each
  fiscal year, and
 Amounts due from annuitants and survivors as the result of benefit overpayments

In FY 2013, the Department of the Treasury completed the reconciliation of estimated District
Benefit Payments received by Treasury for the District’s portion of annuitant benefit payments
made between October 1, 1997 and December 31, 2007 with the amount of total District
Benefit Payments the District should have paid to Treasury. As of September 30, 2013, the
amount due from the District is approximately $30.9 million, of which $9.4 million relates to
police officer and firefighter benefits and $21.5 million relates to teacher benefits. The payment
for the amount due from the District was received on March 31, 2014.

g. ADP Software, Net
ADP Software, Net represents the pension benefit and payroll software purchased and
independent contractor costs incurred in FY 2000 – FY 2008 to develop a pension/payroll
system to meet Treasury’s and D.C.’s needs (net of accumulated amortization). It also
represents enhancements that added new capabilities in the pension/payroll system in FY 2010
(net of accumulated amortization).
Internal use software is recorded at cost and capitalized in accordance with the following
thresholds:
   Capitalize software acquisitions that exceed $125,000
   Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
    greater than $5,000 and less than $125,000) that exceed $500,000
   Capitalize aggregate purchases (multiple purchases of items directly related to a specific
    project and unit cost is less than $125,000) that exceed $500,000
Software is amortized using the straight-line method over an estimated useful life of five years,
with six months amortization taken in the first and last year.
                                             56
h. Equipment, Net
Equipment, Net represents computer hardware purchases (net of accumulated depreciation)
placed in service and used to run ADP Software and operation of the pension/payroll system.
Equipment is recorded at cost and capitalized in accordance with the following thresholds:
    Capitalize equipment acquisitions that exceed $50,000
    Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
     greater than $5,000 and less than $50,000) that exceed $500,000
    Capitalize aggregate purchases (multiple purchases of items directly related to a specific
     project and unit cost is less than $50,000) that exceed $500,000
Equipment is depreciated using the straight-line method over an estimated useful life of five
years, with six months depreciation taken in the first and last year.
i.   Accrued Pension Benefits Payable
Accrued pension benefits payable relate primarily to retirement benefits to which the recipients
became entitled during the reporting period, but which, by law, are paid on the first business
day of the subsequent period. This accrual may also include amounts for refund claims for
which processing was not completed during the reporting period, but will be paid in the
subsequent period.
j.   Actuarial Pension Liability
The actuarial cost method used to determine costs for the Police Officers’ and Firefighters’
Retirement Plan, Teachers’ Retirement Plan, and Judges’ Retirement Plan is the Individual
Entry Age Normal Cost Method. Under this funding method, the normal cost is a level percent
of covered salary, which, along with the member contributions (under the Judges’ Plan only),
will pay for projected benefits at retirement for the active plan participants. The level percent
developed is called the normal cost rate and the product of that rate and payroll is the normal
cost. The actuarial accrued liability is that portion of the present value of projected benefits that
will not be paid by future normal costs or member contributions. The difference between this
liability and the funds accumulated at the same date is referred to as the unfunded actuarial
pension liability. The economic assumptions (rate of return, inflation, and salary increases) are
based upon the requirements of Statement of Federal Financial Accounting Standards (SFFAS)
No. 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits: Reporting the
Gains and Losses from Changes in Assumptions and Selecting Discount Rates and Valuation Dates.
To calculate the actuarial pension liabilities as of October 1, 2013, the Office used a 30-year
yield curve based on a 10-year history of Treasury securities to determine discount rates
consistent with the requirements of SFFAS No. 33. The assumptions for inflation and salary
increases are also the average of 10-year historical values. The assumptions used to calculate
the pension liabilities as of October 1, 2013, were an annual rate of investment return of 1.86%
in FY 2014, gradually increasing to 4.37% by FY 2033 and then gradually increasing to 4.41%
by FY 2043; an annual inflation and cost-of-living adjustment of 2.56% for judges, and 2.53%
for teachers, and 2.43% for police officers and firefighters; and salary increases at an annual
rate of 2.34% for judges, and 3.90% for teachers, 3.40% for police officers, and 3.08% for
firefighters.
                                              57
The assumptions used to calculate the pension liabilities as of October 1, 2012, were an annual
rate of investment return of 2.02% in FY 2013, gradually increasing to 4.70% by FY 2033 and
then gradually decreasing to 4.69% by FY 2038; an annual inflation and cost-of-living
adjustment of 2.53% for judges and 2.55% for teacher, police officers and firefighters; and
salary increases at an annual rate of 1.50% for judges, and 4.25% for teachers, police officers,
and firefighters.
The economic assumptions used by the Office for the teachers, police officers and firefighters,
and judges plans differ from those used by the OPM for the following reasons: (i) the annual
rate of salary increase assumptions are based on different plan member experience; (ii) the
annual rate of inflation and cost-of-living adjustment assumptions are based on different
statutory requirements (applicable Consumer Price Index and period of calculation); and (iii) for
the annual rate of investment return assumption, OPM and the Office use the same underlying
yield curve but, unlike the Office, OPM converts to a single equivalent rate.

k. Appropriations Received and Used
Treasury is required to make annual payments from the General Fund of the Treasury to the
Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize the original unfunded
liabilities assumed by the Federal Government and any subsequent changes in liabilities over a
period of time and to fund the normal cost and necessary administrative expenses of the Funds.
The appropriations are received into the Office’s appropriation funds and are transferred out to
the D.C. Federal Pension Fund and the Judicial Retirement Fund to be invested in non-
marketable GAS securities. In accordance with SFFAS No. 7, Accounting for Revenue and
Other Financing Sources, the payment from the Office’s appropriation funds results in an
appropriation used, as reported in the accompanying Consolidated Statements of Changes in
Net Position. Appropriations received and used for the years ended September 30, 2013 and
2012 were $505.3 million and $492 million, respectively.
l. Treasury Employee Retirement Plans
The D.C. Federal Pension Fund and Judicial Retirement Fund pay the salaries and benefits of
Treasury employees who support the Office as reasonable and necessary expenses incurred in
carrying out the Secretary’s responsibilities under the Act. These salaries and benefits are split
90% and 10% between the D.C. Federal Pension Fund and the Judicial Retirement Fund,
respectively.
The Office’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). FERS was established by Public Law 99-335.
Pursuant to this law, FERS and Social Security automatically cover most employees hired after
December 31, 1983. Employees hired before January 1, 1984, elected to either transfer to
FERS or remain in CSRS.
All employees are eligible to contribute to the Thrift Savings Plan (TSP). For employees
participating in FERS, TSP accounts are automatically established and the D.C. Federal Pension
Fund and the Judicial Retirement Fund make mandatory contributions of one percent of the
Treasury employees’ base pay to the accounts. In addition, the Funds make matching
contributions, ranging from 1% to 4% of base pay, for FERS eligible employees who contribute


                                             58
to their TSP accounts. Pursuant to law, mandatory and matching contributions are not made to
the TSP accounts established for CSRS employees.
FERS employees and certain CSRS reinstatement employees participate in the Social Security
program. The D.C. Federal Pension Fund and Judicial Retirement Fund remit the employer’s
share of the required contributions for eligible employees.
The D.C. Federal Pension Fund and Judicial Retirement Fund do not report information
pertaining to the CSRS and FERS retirement plans covering Treasury employees. The U.S.
Office of Personnel Management is responsible for reporting amounts such as plan assets,
accumulated plan benefits, and related unfunded liabilities, if any.
m. President’s Budget
The FY 2013 Statement of Budgetary Resources (SBR) was reconciled to the Program and
Financing (P&F) Schedules within the President’s Budget for FY 2015 and there were no
differences for budgetary resources, status of budgetary resources, and net outlays. The
President's Budget for FY 2015, which includes the Office’s budget within the Other
Independent Agencies’ budget appendix is available at the following website:
    http://www.whitehouse.gov/omb/budget/overview
The FY 2012 Statement of Budgetary Resources (SBR) was reconciled to the Program and
Financing (P&F) Schedules within the President’s Budget for FY 2014 and there were no
differences for budgetary resources, status of budgetary resources, and net outlays.
n.   Revenue and Financing Sources

All proceeds received and deposited by the Office are used for the purpose of providing annuity
payments for retired District of Columbia teachers, police officers and firefighters for services
earned prior to July 1, 1997, and for retirement benefits earned by District of Columbia judges,
regardless of when services were earned.
Funding for the Judicial Retirement Fund is authorized by 111 Stat. 757, Sec. 11251, Public
Law 105-33 as amended by 112 Stat. 2681-534, Sec. 804(a)(4), Public Law 105-277.
Funding for the D.C. Federal Pension Fund is authorized by 118 Stat. 3967, Sec. 11084, Public
Law 108-489. Sources of revenue or other financing sources for the years ended
September 30, 2013, and 2012 were annual appropriations, employee contributions, and interest
earnings from investments.
o.   Income Taxes
The Office, a component of an agency of the Federal Government, is not subject to Federal,
state, or local income taxes and accordingly, no provision for income taxes has been recorded in
the accompanying financial statements.




                                             59
     p.   Restatement
     Restatements are made in accordance with SFFAS No. 21, “Reporting Corrections of Errors
     and Changes in Accounting Principles.” Specifically, restatements will only be made for
     material prior period errors to: (1) the current period financial statements; and (2) the prior
     period financial statements presented for comparison. For detailed information on the
     restatement made to the FY 2012 financial statements, refer to Note 11 Restatement.


2)   Fund Balance with Treasury
     Fund Balance with Treasury and the Status of Fund Balance with Treasury as of
     September 30, 2013 and 2012, consisted of the following (in thousands):

                                                                2013                  2012

     Fund Balances
        Trust Fund                                        $         9,479     $              118
        Special Fund                                              505,065                    382

     Total Fund Balance with Treasury                     $       514,544     $              500




                                                                2013                  2012
     Status of Fund Balance with Treasury:
       Obligated Balance Not Yet Disbursed                $        62,115     $           62,683
       Adjustments for:
         Budget Authority Unavailable for Obligation            3,790,452              3,705,529
         Adjustment for Amounts Invested in Treasury
           Security Investments                                (3,338,023)            (3,767,712)

     Total                                                $       514,544     $              500



     The adjustments in the table above are required to reconcile the budgetary status to the non-
     budgetary Fund Balance with Treasury as reported on the Consolidated Balance Sheets,
     including:
         Adjustment for Budget Authority Unavailable for Obligation – budget authority that is
          unavailable for obligation reduced the budgetary resources.
         Adjustment for Amounts Invested in Treasury Security Investments – budgetary resources
          that include Treasury security investments; however, the funds have been moved from the
          Fund Balance with Treasury asset account to the Investments account.
     During FY 2013, the Office corrected the presentation of the Status of Fund Balance with
     Treasury as of September 30, 2012, to conform with the required presentation in U.S. generally
     accepted accounting principles.


                                                   60
3)   Investment, Net
     Investments, Net as of September 30, 2013 and 2012 consisted of the following (in thousands):
                                                                         2013
                                                          Unamortized
                                                           Premium,             Investments,    Market
                                         Cost                 Net                   Net         Value
     Intragovernmental Securities
       Non-Marketable Par Value      $     100,185                   -                100,185      100,185
       Non-Marketable Market-based       3,239,705             224,249              3,463,954    3,520,724

     Total                           $   3,339,890             224,249              3,564,139    3,620,909



                                                                         2012
                                                          Unamortized
                                                           Premium,             Investments,    Market
                                         Cost                 Net                   Net         Value
     Intragovernmental Securities
       Non-Marketable Par Value      $     297,483                 -                  297,483      297,483
       Non-Marketable Market-based       3,481,743             268,423              3,750,166    3,890,773

     Total                           $   3,779,226             268,423              4,047,649    4,188,256



     The amortization method utilized by the Office is the effective interest method. The market
     value for notes and bonds is calculated using rates for September 30, 2013 and 2012, as
     published in the Treasury Quote Sheets prepared by Treasury’s Office of Market Finance.
     Included in these figures are a net unrealized gain of $56.8 million as of September 30, 2013,
     and a net unrealized gain of $140.6 million as of September 30, 2012.

     The amortized cost of Investments, Net as of September 30, 2013 and 2012, by maturity date,
     are as follows (in thousands):




                                                     61
4)   Accounts Receivable, Net
     The components of Accounts Receivable, Net as of September 30, 2013 and 2012 are as
     follows (in thousands):




5)   ADP Software, Net
     The components of ADP Software, Net as of September 30, 2013 and 2012 are as follows
     (in thousands):




6)   Equipment, Net
     The components of Equipment, Net as of September 30, 2013 and 2012 are as follows
     (in thousands):




                                              62
7)   Intra-governmental Costs and Exchange Revenue
     Intra-governmental Costs and Exchange Revenue for the years ended September 30, 2013 and
     2012 (Restated) are as follows (in thousands):
                                                                                 Restated
                                                              2013                2012

     Program Costs
         Intragovernmental Costs                  $                  4,913 $           4,911
         Public Costs                                              144,133           305,965
     Total Program Costs                          $                149,046 $         310,876
     Program Revenue
         Intragovernmental Earned Revenue                          (77,530)          (98,282)
         Public Earned Revenue                                     (31,511)             (577)
     Total Program Revenue                        $               (109,041) $        (98,859)

     Net Expense Before Loss from Actuarial
     Assumption Changes                                             40,005           212,017

     Loss on Actuarial Assumption Changes, Net                     364,031           602,159

     Net Cost of Operations                       $                404,036 $         814,176



8)   Administrative Expenses

     Administrative Expenses for the years ended September 30, 2013 and 2012 are as follows
     (in thousands):
                                                           2013                   2012

     Intragovernmental Expenses
          Salaries and Related Benefits       $                     627      $             683
          Contractual Services                                    4,287                  3,678
          Rent                                                       (3)                   547
          Other                                                        2                     3
     Total Intragovernmental Expenses         $                   4,913      $           4,911

     Public Expenses
         Salaries and Related Benefits        $                   2,296      $           2,620
         Contractual Services                                     4,272                  4,947
         Noncapitalized Equipment/Software                            -                      1
         Amortization/Depreciation                                  208                  1,130
         Other                                                      175                     26
     Total Public Expenses                    $                   6,951      $           8,724

     Total Administrative Expenses            $               11,864         $        13,635




                                                      63
9) Pension Expense
   Pension expense for the plan years ended September 30, 2013, and 2012 (Restated), includes the
   following components (in thousands):

                                                                                                Restated
                                                                     2013                        2012

   Beginning Liability Balance                               $         9,210,674        $          8,855,500

   Pension Expense:
      Normal Cost                                                         5,000                       4,533
      Interest on Pension Liability During the Period                   181,610                     196,894
      Actuarial (Gains) Losses During the Period:
          From Experience                                               (49,428)                     95,814
          From Discount Rate Assumption Change                           498,802                    475,058
          From Other Assumption Changes                                (136,356)                    127,101
          From Method Change                                               1,585                          -
          Total Pension Expense                                          501,213                    899,400

   Less Amounts Paid and Accrued                                       (548,124)                   (544,226)

   Ending Liability Balance                                  $         9,163,763        $          9,210,674



   Reconciliation to amounts reported in the Consolidated Statements of Net Cost:
                                                                                                 Restated
                                                                       2013                       2012

   Pension Expense before Actuarial Assumption Changes:
       Normal Cost                                               $              5,000       $           4,533
       Interest on Pension Liability During the Period                       181,610                  196,894
       Actuarial (Gain) Loss During the Period from Experience               (49,428)                  95,814
   Total Pension Expense before Actuarial Assumption Changes     $           137,182        $         297,241

   Loss on Actuarial Assumption Changes, Net
       Actuarial (Gains) Losses During the Period:
         From Discount Rate Assumption Change                    $            498,802       $         475,058
         From Other Assumption Changes                                      (136,356)                 127,101
         From Method Change                                                     1,585                       -
   Total Loss on Actuarial Assumption Changes, Net               $            364,031       $         602,159

   Total Pension Expense                                         $           501,213        $         899,400



   Federal Benefit Payments
   Federal pension benefits paid and accrued during the plan years were $537.9 million and
   $10.2 million from the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively,
   for 2013, and $534.1 million and $10.1 million, respectively, for 2012. For FY 2013 and
   FY 2012, approximately $0.28 million and $0.35 million, respectively, represent contribution
   refunds to plan participants of the D.C. Federal Pension Fund.


                                                        64
    Actuarial Gains and Losses
    In FY 2013, there was a net liability actuarial loss in both funds. There was a liability actuarial
    loss of $498.8 million due to new discount rate assumptions, a liability actuarial gain of $136.4
    million due to new pay and cost-of-living assumptions, a liability actuarial gain of $49.4 million
    due to experience, and a liability actuarial loss of $1.6 million due to method change. The net
    result was a total liability actuarial loss of $314.6 million for both funds.
    In FY 2012 (Restated), there was a net liability actuarial loss in both funds. There was a
    liability actuarial loss of $475.1 million due to new discount rate assumptions, a liability
    actuarial loss of $127.1 million due to new pay and cost-of-living assumptions, and a liability
    actuarial loss of $95.8 million due to experience. The net result was a total liability actuarial
    loss of $698 million for both funds.

10) Reconciliation of Net Cost of Operations to Budget
    The Reconciliation of Net Cost of Operations to Budget explains the difference between the
    budgetary net obligations and the proprietary net cost of operations. As of September 30, 2013,
    and 2012 (Restated), the Reconciliation of Net Cost of Operations to Budget consisted of the
    following (in thousands):
                                                                                            Restated
                                                                           2013              2012
    Budgetary Resources Obligated
       Obligations Incurred                                            $    1,062,110 $        1,062,235
       Less: Spending Authority from Offsetting Collections and
       Recoveries                                                               4,348              5,417
       Obligations Net of Offsetting Collections and Recoveries             1,057,762          1,056,818
       Less: Offsetting Receipts                                              631,807            544,052
       Net Obligations                                                        425,955            512,766
       Imputed Financing from Costs Absorbed by Others                            127                152
       Total Resources Used to Finance Activities                             426,082            512,918
    Resources Used to Finance Items not Part of the Net Cost of
    Operations
       Change in Budgetary Resources Obligated for Goods,
        Services and Benefits Ordered but not yet Provided                         (716)             (12)
       Resources That Fund Expenses Recognized in Prior Periods                   24,386           8,214
       Budgetary Offsetting Collections and Receipts that do not
       Affect Net Cost of Operations                                                 (1)                (1)
    Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                              23,669              8,201
    Total Resources Used to Finance Net Cost of Operations                    402,413            504,717
    Components Requiring or Generating Resources in Future Periods
        Future Funded Expenses                                               (46,911)            355,176
    Total Components of Net Cost of Operations that will Require or
     Generate Resources in Future Periods                                    (46,911)            355,176
    Components not Requiring or Generating Resources
        Depreciation and Amortization                                          75,917              51,280
        Other                                                                (27,383)            (96,997)
    Total Components of Net Cost Operations that will not Require or
     Generate Resources in Future Periods                                         48,534         (45,717)
    Total Components of Net Cost Operations that will not Require or
     Generate Resources in Current Periods                                      1,623            309,459
    Net Cost of Operations                                             $      404,036 $          814,176


                                                      65
11) Restatement
    During FY 2013, the Office discovered an error had occurred in the calculation used to
    support Actuarial Pension Liability reported in the previously issued consolidated financial
    statements as of September 30, 2010, 2011, and 2012. The error involved applying an
    incorrect present value discounting method to calculate liabilities impacting actuarial
    gains/losses in ODCP’s actuarial valuation reports for the periods FY 2010 through
    FY 2012. To correct this error, the Office restated its Consolidated Balance Sheet as of
    September 30, 2012 and its Consolidated Statement of Net Cost and Consolidated
    Statement of Changes in Net Position for the period ended September 30, 2012 within the
    FY 2013 comparative financial statements. The Office reflected the cumulative effect of
    the error attributable to fiscal years FY 2010 and FY 2011 as an adjustment to the
    beginning balance of the Cumulative Results of Operations in the Consolidated Statement
    of Changes in Net Position for the period ended September 30, 2012.

    A summary of the effect of the restatement is shown below:

                                                                  2012, as Previously       Correction        2012, as
                                                                       Reported              of Error         Restated

    Consolidated Balance Sheet
    Liabilities Not Covered by Budgetary Resources
      Actuarial Pension Liability                            $             6,353,764    $     (848,619)   $    5,505,145
    Total Liabilities                                                     10,116,319          (848,619)        9,267,700

    Cumulative Results of Operations                                      (6,023,609)          848,619        (5,174,990)
    Total Net Position                                                    (6,023,609)          848,619        (5,174,990)

    Consolidated Statement of Net Cost
    Pension Expense before Actuarial Assumption Changes       $              242,437    $        54,804   $      297,241
    Net Expense Before Loss from Actuarial Assumption Changes                157,213             54,804          212,017

    Loss on Actuarial Assumption Changes, Net                                690,264           (88,105)          602,159
    Net Cost of Operations                                                   847,477           (33,301)          814,176

    Consolidated Statement of Changes in Net Position
    Correction of Error                                      $                      -   $      815,318    $       815,318
    Beginning Balances, as Restated                                       (5,668,324)          815,318        (4,853,006)

    Net Cost of Operations                                                  (847,477)           33,301          (814,176)
    Net Change                                                              (355,285)           33,301          (321,984)
    Cumulative Results of Operations                                      (6,023,609)          848,619        (5,174,990)
    Net Position                                                          (6,023,609)          848,619        (5,174,990)




                                                        66
68
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2013 and September 30, 2012
(in thousands)
                                                                                                                                                       Restated
                                                                                  2013                                                                  2012
                                                            D.C. Judicial                                                         D.C. Judicial
                                                                                                       Consolidated D.C.                                                Consolidated D.C.
                                                           Retirement and      D.C. Federal                                      Retirement and      D.C. Federal
                                                                                                        Pension Funds                                                    Pension Funds
                                                          Survivors Annuity    Pension Fund                                     Survivors Annuity    Pension Fund
                                                                                                            Total                                                            Total
                                                                Fund                                                                  Fund
Assets:
      Intragovernmental
           Fund Balance With Treasury                 $               9,479            505,065                   514,544    $                 118                382                  500
           Investments, Net                                         133,931          3,430,208                 3,564,139                  140,408          3,907,241            4,047,649
           Interest Receivable                                          566             34,552                    35,118                      603             34,572               35,175
           Advances to Others                                             4                 37                        41                        5                 48                   53
      Total Intragovernmental                                       143,980          3,969,862                 4,113,842                  141,134          3,942,243            4,083,377
      Accounts Receivable                                                 7             33,488                    33,495                        -              9,109                9,109
      ADP Software, Net                                                   -                 17                        17                        -                224                  224
      Equipment, Net                                                      -                  -                         -                        -                  -                    -
Total Assets                                          $             143,987          4,003,367                 4,147,354    $             141,134          3,951,576            4,092,710

Liabilities:
   Liabilities Covered By Budgetary Resources
      Intragovernmental
            Accounts Payable                          $                   4                 43                        47    $                   6                 51                   57
            Accrued Payroll and Benefits                                  1                 11                        12                        3                 31                   34
      Total Intragovernmental                                             5                 54                        59                        9                 82                   91
      Accounts Payable                                                    2              2,401                     2,403                       15              3,226                3,241
      Accrued Pension Benefits Payable                                  872             53,599                    54,471                      845             52,495               53,340
      Actuarial Pension Liability                                   138,034          3,651,492                 3,789,526                  134,125          3,571,404            3,705,529
      Accrued Payroll and Benefits                                       20                207                       227                       42                312                  354
   Total Liabilities Covered By Budgetary Resources                 138,933          3,707,753                 3,846,686                  135,036          3,627,519            3,762,555

  Liabilities Not Covered By Budgetary Resources
      Actuarial Pension Liability                                    53,848          5,320,389                 5,374,237                   51,287          5,453,858            5,505,145
Total Liabilities                                                   192,781          9,028,142                 9,220,923                  186,323          9,081,377            9,267,700

Net Position:
  Cumulative Results of Operations                                  (48,794)        (5,024,775)               (5,073,569)                 (45,189)        (5,129,801)          (5,174,990)
Total Net Position                                                  (48,794)        (5,024,775)               (5,073,569)                 (45,189)        (5,129,801)          (5,174,990)

Total Liabilities and Net Position                    $             143,987          4,003,367                 4,147,354    $             141,134          3,951,576            4,092,710

See accompanying independent auditors' report.




                                                                                                  69
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)
                                                                                                                                                   Restated
                                                                                    2013                                                            2012
                                                              D.C. Judicial                                                   D.C. Judicial
                                                                                                    Consolidated D.C.                                             Consolidated D.C.
                                                             Retirement and      D.C. Federal                                Retirement and      D.C. Federal
                                                                                                     Pension Funds                                                 Pension Funds
                                                            Survivors Annuity    Pension Fund                               Survivors Annuity    Pension Fund
                                                                                                         Total                                                         Total
                                                                  Fund                                                            Fund
Program Costs
  Administrative Expenses                               $                  750           11,114                11,864   $                 798            12,837              13,635
  Pension Expense before Actuarial Assumption Changes                    7,277          129,905               137,182                  12,008           285,233             297,241
Less: Earned Revenues
  Interest Earned                                                        3,826             73,704              77,530                    4,091           94,191              98,282
  Benefit Program Revenue                                                    -             30,894              30,894                        -                -                   -
  Employee Contributions                                                   617                  -                 617                      577                -                 577
Net Expense Before Loss from Actuarial Assumption
Changes                                                                  3,584             36,421              40,005                    8,138          203,879             212,017

Loss on Actuarial Assumption Changes, Net                               9,464           354,567               364,031                  10,430           591,729             602,159
Net Cost of Operations                                  $              13,048           390,988               404,036   $              18,568           795,608             814,176

See accompanying independent auditors' report.




                                                                                           70
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)

                                                                                                                                                   Restated
                                                                             2013                                                                   2012
                                                   D.C. Judicial                                                           D.C. Judicial
                                                                                             Consolidated D.C.                                                       Consolidated D.C.
                                                  Retirement and          D.C. Federal                                    Retirement and          D.C. Federal
                                                                                              Pension Funds                                                           Pension Funds
                                                 Survivors Annuity       Pension Fund                                    Survivors Annuity       Pension Fund
                                                                                                  Total                                                                   Total
                                                       Fund                                                                    Fund

Cumulative Results of Operations:

Net Position - Beginning of Year           $               (45,189)           (5,129,801)           (5,174,990)      $             (53,106)           (5,615,218)           (5,668,324)

  Correction of Error                                                -                   -                       -                  16,830               798,488               815,318

Beginning Balances, as Restated                            (45,189)           (5,129,801)           (5,174,990)                    (36,276)           (4,816,730)           (4,853,006)

Budgetary Financing Sources:

  Appropriations Used                                         9,430              495,900               505,330                        9,640              482,400               492,040

Other Financing Sources (Nonexchange):
  Imputed Financing                                              13                  114                   127                           15                   137                  152

Total Financing Sources                                       9,443              496,014               505,457                        9,655              482,537               492,192

Net Cost of Operations                                     (13,048)             (390,988)            (404,036)                     (18,568)             (795,608)            (814,176)

Net Change                                                  (3,605)              105,026               101,421                      (8,913)             (313,071)            (321,984)

Cumulative Results of Operations           $               (48,794)           (5,024,775)           (5,073,569)      $             (45,189)           (5,129,801)           (5,174,990)

Unexpended Appropriations:

 Beginning Balance                         $                         -                   -                       -   $                       -                   -                       -

 Budgetary Financing Sources:

   Appropriations Received                                    9,430              495,900               505,330                        9,640              482,400               492,040

   Appropriations Used                                      (9,430)             (495,900)            (505,330)                      (9,640)             (482,400)            (492,040)

Total Budgetary Financing Sources                                    -                   -                       -                           -                   -                       -

Total Unexpended Appropriations                                      -                   -                       -                           -                   -                       -

Net Position                               $               (48,794)           (5,024,775)           (5,073,569)      $             (45,189)           (5,129,801)           (5,174,990)


See accompanying independent auditors' report.



                                                                                               71
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statement of Budgetary Resources
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)

                                                                                              2013                                                                2012
                                                                    DC Judicial                                                             DC Judicial
                                                                                                               Consolidated D.C.                                                   Consolidated D.C.
                                                                   Retirement and       DC Federal Pension                                Retirement and        DC Federal
                                                                                                                Pension Funds                                                       Pension Funds
                                                                  Survivors Annuity           Fund                                       Survivors Annuity     Pension Fund
                                                                                                                    Total                                                               Total
                                                                        Fund                                                                   Fund
Budgetary Resources
Unobligated Balance Brought Forward, October 1                $                   -                      -                     -     $                   -                   -                     -
Recoveries of Prior Year Unpaid Obligations                                      79                  4,266                 4,345                        81               5,326                 5,407
Unobligated Balance from Prior Year Budget Authority, Net                        79                  4,266                 4,345                        81               5,326                 5,407
Appropriations (Discretionary and Mandatory)                                 20,441              1,037,321             1,057,762                    20,493           1,036,325             1,056,818
Spending Authority from Offsetting Collections                                    -                      3                     3                         -                  10                    10
Total Budgetary Resources                                     $              20,520              1,041,590             1,062,110     $              20,574           1,041,661             1,062,235

Status of Budgetary Resources
Obligations Incurred                                          $              20,520              1,041,590             1,062,110     $              20,574           1,041,661             1,062,235
Total Budgetary Resources                                     $              20,520              1,041,590             1,062,110     $              20,574           1,041,661             1,062,235

Change in Obligated Balance
Unpaid Obligations, Brought Forward, October 1                $                1,112                 61,571                62,683    $                1,049              59,869                60,918
Obligations Incurred                                                          20,520              1,041,590             1,062,110                    20,574           1,041,661             1,062,235
Outlays (Gross)                                                             (20,455)            (1,037,878)           (1,058,333)                  (20,430)         (1,034,633)           (1,055,063)
Recoveries of Prior Year Unpaid Obligations                                      (79)                (4,266)               (4,345)                      (81)             (5,326)               (5,407)
Unpaid Obligations, End of Year (Gross)                                        1,098                 61,017                62,115                     1,112              61,571                62,683
Obligated Balance, End of Year                                $                1,098                 61,017                62,115    $                1,112              61,571                62,683

Budget Authority and Outlays, Net
Budget Authority, Gross (Discretionary and Mandatory)         $              20,441              1,037,324             1,057,765     $              20,493           1,036,335             1,056,828
Actual Offsetting Collections (Discretionary and Mandatory)                       -                     (3)                   (3)                        -                 (10)                  (10)
Budget Authority, Net (Discretionary and Mandatory)           $              20,441              1,037,321             1,057,762     $              20,493           1,036,325             1,056,818

Outlays, Gross (Discretionary and Mandatory)                  $              20,455              1,037,878             1,058,333     $              20,430           1,034,633             1,055,063
Actual Offsetting Collections (Discretionary and Mandatory)                        -                    (3)                   (3)                         -                (10)                  (10)
Outlays, Net (Discretionary and Mandatory)                                   20,455              1,037,875             1,058,330                    20,430           1,034,623             1,055,053
Distributed Offsetting Receipts                                              (9,430)             (622,377)             (631,807)                    (9,640)          (534,412)             (544,052)
Agency Outlays, Net (Discretionary and Mandatory)             $              11,025                415,498               426,523     $              10,790             500,211               511,001

See accompanying independent auditors' report.




                                                                                                     72
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Schedule of Pension Expense - by Fund
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)

                                                                                                                                                                           Restated
                                                                                           2013                                                                             2012
                                                         D.C. Judicial Retirement                                                          D.C. Judicial Retirement
                                                                                    D.C. Federal Pension        Consolidated D.C.                                     D.C. Federal Pension       Consolidated D.C.
                                                          and Survivors Annuity                                                             and Survivors Annuity
                                                                                           Fund                Pension Funds Total                                           Fund               Pension Funds Total
                                                                  Fund                                                                              Fund

Beginning Liability Balance                          $                   185,413                  9,025,261                9,210,674   $                   173,023                8,682,477                 8,855,500

Pension Expense:
   Normal Cost                                                             5,000                         -                     5,000                         4,533                          -                   4,533
   Interest on Pension Liability During the Period                         3,665                   177,945                   181,610                         3,855                    193,039                 196,894
   Actuarial (Gains) Losses During the Period:
       From Experience                                                    (1,388)                  (48,040)                 (49,428)                         3,620                     92,194                  95,814
       From Discount Rate Assumption Change                                 9,064                   489,738                  498,802                         8,207                    466,851                 475,058
       From Other Assumption Changes                                      (1,185)                 (135,171)                (136,356)                         2,223                    124,878                 127,101
       From Method Change                                                   1,585                         -                    1,585                             -                          -                       -
       Total Pension Expense                                              16,741                    484,472                  501,213                        22,438                    876,962                 899,400

Less Amounts Paid and Accrued                                            (10,272)                 (537,852)                (548,124)                       (10,048)                (534,178)                (544,226)

Ending Liability Balance                             $                   191,882                  8,971,881                9,163,763   $                   185,413                9,025,261                 9,210,674

See accompanying independent auditors' report.




                                                                                                              73
(This page left intentionally blank.)
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Schedule of Spending (Unaudited)
For the Years Ended September 30, 2013 and September 30, 2012
(in thousands)
                                                                                        2013                                                          2012
                                                                  D.C. Judicial                                                 D.C. Judicial
                                                                                                      Consolidated D.C.                                             Consolidated D.C.
                                                                 Retirement and      D.C. Federal                              Retirement and      D.C. Federal
                                                                                                       Pension Funds                                                 Pension Funds
                                                                Survivors Annuity   Pension Fund                              Survivors Annuity   Pension Fund
                                                                                                           Total                                                         Total
                                                                      Fund                                                          Fund

What Money is Available to Spend?
Total Resources                                            $               20,520         1,041,590           1,062,110   $              20,574         1,041,661           1,062,235
Less Amount Not Agreed to be Spent                                              -                 -                   -                       -                 -                   -
Less Amount Not Available to be Spent                                           -                 -                   -                       -                 -                   -
Total Amounts Agreed to be Spent                           $               20,520         1,041,590           1,062,110   $              20,574         1,041,661           1,062,235

How was the Money Spent?
Personnel Compensation                                     $                  266             2,147               2,413   $                 302             2,362               2,664
Personnel Benefits                                                             61               535                 596                      73               628                 701
Travel and transportation of persons                                            -                 1                   1                       1                 8                   9
Rent, Communications, and utilities                                             -                 -                   -                      60               539                 599
Printing and reproduction                                                       -                 2                   2                       -                 2                   2
Other contractual services                                                    488            11,232              11,720                     450            13,543              13,993
Supplies and materials                                                          1                 4                   5                       -                 3                   4
Equipment                                                                       -                 -                   -                       -                 1                   1
Insurance claims and indemnities                                           10,274           531,769             542,043                  10,047           542,150             552,197
Other (i.e. unvouchered, undistributed)                                     9,430           495,900             505,330                   9,640           482,425             492,065
Total Amounts Agreed to be Spent                           $               20,520         1,041,590           1,062,110   $              20,574         1,041,661           1,062,235

Who did the Money go to?
Federal                                                    $                9,868           500,446             510,314   $              10,111           486,886             496,997
Non-Federal                                                                10,652           541,144             551,796                  10,463           554,775             565,238
Total Amounts Agreed to be Spent                           $               20,520         1,041,590           1,062,110   $              20,574         1,041,661           1,062,235

See accompanying independent auditors' report.




                                                                                         77
(This page left intentionally blank.)
